<html>
<title> - REALITY CHECK: THE IMPACT AND ACHIEVABILITY OF EPA'S PROPOSED OZONE STANDARDS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                       REALITY CHECK: THE IMPACT
                       AND ACHIEVABILITY OF EPA'S
                        PROPOSED OZONE STANDARDS

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2015

                               __________

                           Serial No. 114-10

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://science.house.gov
       
                                 __________
                                 

                        U.S. GOVERNMENT PUBLISHING OFFICE
93-888 PDF                   WASHINGTON : 2015                        
 
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="593e2936193a2c2a2d313c3529773a363477">[email&#160;protected]</a>  
             
              
              
              
              
              
              
              
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              FREDERICA S. WILSON, Florida
MICHAEL T. McCAUL                    SUZANNE BONAMICI, Oregon
STEVEN M. PALAZZO, Mississippi       ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, TEXAS
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
                            C O N T E N T S

                             March 17, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................    10

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    11
    Written Statement............................................    13

                               Witnesses:

Mr. Harry C. Alford, President and CEO, National Black Chamber of 
  Commerce
    Oral Statement...............................................    15
    Written Statement............................................    17

Mr. Raymond Keating, Chief Economist, Small Business & 
  Entrepreneurship Council
    Oral Statement...............................................    23
    Written Statement............................................    25

Dr. Mary B. Rice, Instructor in Medicine, Harvard Medical School, 
  Pulmonary and Critical Care Physician, Division of Pulmonary, 
  Critical Care and Sleep Medicine, Beth Israel Deaconess Medical 
  Center, Boston MA
    Oral Statement...............................................    35
    Written Statement............................................    37

Dr. Allen S. Lefohn, President, A.S.L. & Associates
    Oral Statement...............................................    44
    Written Statement............................................    46

Mr. Eldon Heaston, Executive Director, Mojave Desert AQMD, 
  Antelope Valley AQMD
    Oral Statement...............................................    54
    Written Statement............................................    56

Discussion.......................................................    61

             Appendix I: Answers to Post-Hearing Questions

Mr. Harry C. Alford, President and CEO, National Black Chamber of 
  Commerce.......................................................    90

Mr. Raymond Keating, Chief Economist, Small Business & 
  Entrepreneurship Council.......................................    91

Dr. Mary B. Rice, Instructor in Medicine, Harvard Medical School, 
  Pulmonary and Critical Care Physician, Division of Pulmonary, 
  Critical Care and Sleep Medicine, Beth Israel Deaconess Medical 
  Center, Boston MA..............................................    97

Dr. Allen S. Lefohn, President, A.S.L. & Associates..............   101

Mr. Eldon Heaston, Executive Director, Mojave Desert AQMD, 
  Antelope Valley AQMD...........................................   199

            Appendix II: Additional Material for the Record

Documents submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   204

Letter submitted by Representative Suzanne Bonamici, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   250

Documents submitted by Representative Jim Bridenstine, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   265

Article submitted by Representative Randy K. Weber, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   292

Letter submitted by Representative John R. Moolenaar, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   300

Letter submitted by Representative Thomas Massie, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   308

Letter submitted by Representative Gary Palmer, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   310

Documents submitted by Representative Bruce Westerman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   312

Letter submitted by Representative Frank D. Lucas, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   320

Documents submitted by Representative Lamar Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   323

                       REALITY CHECK: THE IMPACT.
                       AND ACHIEVABILITY OF EPA'S.
                        PROPOSED OZONE STANDARDS

                              ----------                              


                        TUESDAY, MARCH 17, 2015

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:03 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time. 
Welcome to today's hearing, titled ``Reality Check: The Impact 
and Achievability of EPA's Proposed Ozone Standards''. I will 
recognize myself for an opening statement, and then the Ranking 
Member.
    Today is the final date to submit comments on the 
Environmental Protection Agency's proposed National Ambient Air 
Quality Standards, or as it is sometimes called, NAAQS. The 
agency's proposal seeks to lower the standard to 65 to 70 parts 
per billion, from the current 75 parts per billion standard 
that was set in 2008, and is only now being implemented. Our 
hearing will review the impact of this proposed regulation, and 
whether it can be implemented.
    By law, the EPA is required to review the ozone standard 
every five years, but the agency is not required to set new 
standards. According to EPA's own website, and this is on the 
PowerPoint screens on either side, according to EPA's own 
website, since 1980 ozone levels have decreased by 33 percent, 
while volatile organic compounds have decreased by over 50 
percent. The air we breathe is significantly cleaner, and will 
continue to improve, thanks to new technologies.
    However, it is premature and unnecessary for the EPA to 
propose a new standard when we have not yet given states the 
opportunity to meet the 2008 standard. Many of the technologies 
that the EPA forces states to use either do not exist, or will 
be excessively expensive. In its regulatory impact analysis, 
the EPA assumes that these controls will somehow just 
automatically be implemented. As this next chart shows, at 70 
parts per billion, over 60 percent of the costs of the program 
are based upon so-called unknown controls, and at 65 parts per 
billion, unknown controls become 75 percent of the estimated 
cost. By the EPA's own admission, this rule is unworkable.
    I am also concerned that the science used to justify this 
rule is not good science. These proposed standards are 
impossible to meet in some places. The ozone level that occurs 
naturally would be above the standard set by the EPA, which 
would mean trying to beat Mother Nature. International 
transport of ozone from countries like China and Mexico further 
complicate attaining the existing ozone standards. The EPA has 
failed to adequately consider these issues. The proposed air 
quality change could cause many areas to be out of compliance 
with the Clean Air Act through no fault of their own.
    We should all be concerned about the process the EPA used 
to reach their conclusions. During earlier stages of this 
rulemaking, EPA relied upon studies with data that was not 
publicly available. This raises a lot of suspicions. 
Furthermore, the EPA has regularly chosen to disregard 
inconvenient scientific conclusions, and muzzled dissenting 
voices. This hearing provides an example of why we should 
support both the Secret Science Reform Act, and the Science 
Advisory Board Reform Act, which are on the House floor this 
week. The Secret Science Reform Act requires that the EPA use 
the best available science in an honest and transparent manner. 
The Science Advisory Board Reform Act promotes fairness, 
transparency, and public participation to ensure unbiased 
scientific advice.
    There will be serious economic consequences if the EPA 
moves forward with new ozone standards. Implementation of this 
rule will cost billions of dollars, and adversely affect many 
Americans. The cost is certain, but the health benefits are 
not. Today's witnesses will testify on how this proposed rule 
will impact American small businesses and job creation. 
According to the Business Roundtable's analysis, nearly 60 
percent of Americans would live in areas of non-attainment, 
including 45 of 50 states that would be completely or partially 
violating the standard. A non-attainment designation under the 
Clean Air Act has serious consequences. It stops new employers 
from moving into the state. Businesses would be forced to deal 
with additional burdensome permitting and compliance 
obligations, which halts expansion and economic development. 
Ultimately, good jobs will be lost. This rule could be 
devastating.
    Many communities still struggle to meet the standards that 
were set in 2008. Other communities have never met the 
standards set in 1979. State and local municipalities will bear 
the brunt of the regulatory cost. Tighter regulations also will 
hamper economic recovery, and put additional burdens on the 
backs of hard working American families. According to a 
February 2015 National Economic Research Associates 
comprehensive study, average annual household consumption could 
be reduced by $830 per year. In addition, families will have to 
pay for higher energy costs.
    In 2010 businesses and communities across the country 
protested the EPA's efforts to tighten these standards. The 
overwhelming concerns eventually forced President Obama to 
withdraw the proposal. The President does not have any reason 
to propose these new rules, since our air is already becoming 
clearer. These are the wrong regulations at the wrong time. The 
EPA should reconsider their proposed rule, and keep the 
existing 2008 standard.
    [The prepared statement of Mr. Smith follows:]

   Prepared Statement of Committee on Science, Space, and Technology
                          Chairman Lamar Smith

    Today is the final day to submit comments on the Environmental 
Protection Agency's (EPA's) proposed National Ambient Air Quality 
Standards (NAAQS).
    The Agency's proposal seeks to lower the standard to 65-70 parts 
per billion (ppb), from the current 75 ppb standard that was set in 
2008 and is only now being implemented. Our hearing will review the 
impact of this proposed regulation and whether it can be implemented.
    By law, the EPA is required to review the ozone standard every five 
years, but the agency is not required to set new standards. According 
to EPA's own website, since 1980, ozone levels have decreased by 33 
percent and Volatile Organic Compounds have decreased by over 50 
percent.
    The air we breathe is significantly cleaner and will continue to 
improve thanks to new technologies. However, it is premature and 
unnecessary for the EPA to propose a new standard when we have not yet 
given states the opportunity to meet the 2008 standard. Many of the 
technologies that the EPA forces states to use either do not exist or 
will be excessively expensive.
    In its Regulatory Impact Analysis, the EPA assumes that these 
controls will somehow just automatically be implemented. As this chart 
shows, at 70 ppb, over 60 percent of the costs of the program are based 
on so-called ``unknown controls.'' And at 65 ppb, unknown controls 
become 75 percent of the estimated costs. By the EPA's own admission, 
this rule is unworkable.
    I am also concerned that the science used to justify this rule is 
not good science. These proposed standards are impossible to meet in 
some places. The ozone level that occurs naturally would be above the 
standard set by the EPA, which would mean trying to beat Mother Nature.
    International transport of ozone from countries like China and 
Mexico further complicate attaining the existing ozone standards. The 
EPA has failed to adequately consider these issues. We should all be 
concerned about the process the EPA used to reach their conclusions. 
During earlier stages of this rule making, EPA relied on studies with 
data that was not publically available. This raises a lot of 
suspicions. Furthermore, the EPA has regularly chosen to disregard 
inconvenient scientific conclusions and muzzled dissenting voices.
    This hearing provides an example of why we should support both the 
Secret Science Reform Act and the Science Advisory Board Reform Act, 
which are on the House floor this week.
    The Secret Science Reform Act requires that the EPA use the best 
available science in an honest and transparent manner. The Science 
Advisory Board Reform Act promotes fairness, transparency, and public 
participation to ensure unbiased scientific advice.
    There will be serious economic consequences if the EPA moves 
forward with new ozone standards. Implementation of this rule will cost 
billions of dollars and adversely affect many Americans. The cost is 
certain but the health benefits are not.
    Today's witnesses will testify on how this proposed rule will 
impact American small businesses and job creation. According to the 
Business Roundtable's analysis, nearly 60 percent of Americans would 
live in areas of non-attainment, including 45 of 50 states that would 
be completely or partially violating the standard.
    A non-attainment designation under the Clean Air Act has serious 
consequences. It stops new employers from moving into the state. 
Businesses would be forced to deal with additional burdensome 
permitting and compliance obligations, which halt expansion and 
economic development. Ultimately, good jobs will be lost.
    This rule could be devastating. Many communities still struggle to 
meet the standards that were set in 2008. Other communities have never 
met the standards set in 1979. State and local municipalities will bear 
the brunt of the regulatory costs.
    Tighter regulations also will hamper economic recovery and put 
additional burdens on the backs of hard-working American families. 
According to a February 2015 National Economic Research Associates 
comprehensive study, the average annual household consumption could be 
reduced by $830 per year. In addition, families will have to pay for 
higher energy prices.
    In 2010, businesses and communities across the country protested 
the EPA's efforts to tighten these standards. The overwhelming concerns 
eventually forced President Obama to withdraw the proposal.
    The President does not have any reason to propose these new rules 
since our air is already becoming cleaner.
    These are the wrong regulations at the wrong time. The EPA should 
reconsider their proposed rule and keep the existing 2008 standard.

    Chairman Smith. Now, that concludes my opening statement, 
and the gentlewoman from Texas, the Ranking Member, Eddie 
Bernice Johnson, is recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman, and thank 
you to our witnesses for being here this morning. We are here 
today to discuss the Environmental Protection Agency's proposal 
to lower the standard for ozone, the pollutant that causes 
smog, from the current standard of 75 parts per billion to a 
standard in the range of 65 to 70 parts per billion.
    The scientific evidence supports a lower standard for ozone 
than we currently have. According to the EPA's analysis, 
strengthening the standard will provide better protection for 
our children by preventing 320,000 to 960,000 asthma attacks. 
It will keep them from missing 330,000 to 1 million days in 
school each year, and it will stop between 750 to 4,300 
premature deaths. As someone who worked in the public health 
field before I entered politics, I am a nurse. I am very 
sensitive to the problem poor air quality can have on the 
health of Americans, especially the young and the infirm.
    Unfortunately, those of us from Dallas-Fort Worth region--
he is from San Antonio, so it must be much better--are very 
familiar with the negative effects of smog, and are accustomed 
to seeing orange and red alert warnings about being outside 
because the air is too polluted to be safe. In fact, the 
American Lung Association gives the air quality in Dallas a 
grade of F, which means that the health of our--my constituents 
is seriously at risk. It is clear that air quality related 
illnesses have a very real and destructive effect on the 
economy, on the order of hundreds of billions of dollars 
annually, and the benefits of reducing those effects will be 
seen throughout the country.
    Despite that, some will argue that EPA's proposed standard 
will kill jobs, decimate the industrial base, and result in 
irreparable economic disruption. This is not a new story. It is 
what has been said for decades about every major environmental 
and consumer protection, from catalytic converters, to 
scrubbers, to seat belts. We all know that none of these 
predictions have come true. In fact, there is much more 
evidence showing that, on balance, jobs are created, and the 
economy expands following the passage of major reforms. For 
example, the U.S. economy grew by 64 percent in the years 
following the passage of the Clean Air Act. Furthermore, in a 
report to Congress on the cost and benefits of federal 
regulations, OMB estimated that major rules promulgated by EPA 
between 2003 and 2013 had been benefits between $165 billion 
and $850 billion, compared to the cost of just 38 billion to 46 
billion. This is significant return on investment.
    And however much we might wish for a world where big 
environmental issues are addressed voluntarily by industry, or 
through the workings of the free market, we all know that it 
just does not work that way. Now more than ever the American 
people need a strong EPA to protect their right to clean air 
and clean water. Let me be clear, I am not insensitive to some 
of the concerns we will likely hear today. But I want to remind 
everyone that EPA, as required by law, must set the ozone 
standard at a level that will protect public health based on 
the science, and not based on cost or technical feasibility. 
The health of Americans must come first.
    That said, I am confident, based on past precedence, that 
ultimately these regulations act as a catalyst for the creation 
of new jobs in industrial sectors. Stricter pollution limits 
force us to push the envelope of scientific innovation and 
create new technologies. According to the Department of 
Commerce, the United States is the world's largest producer of 
environmental protection technologies. Indeed, at $782 billion, 
the market for environmental goods and services is comparable 
to the aerospace and pharmaceutical industries, and present 
important opportunities for the U.S. industry. Thankfully, poll 
after poll shows that the public agrees with me, and believes--
even in Texas, and believes that the EPA should protect their 
right to clean air and water, more than they believe that 
pollution is the price they must pay for an economic security.
    Although significant process has been made in the past 40 
years, it is our job now to build up on the legacy, and ensure 
that we continue to improve the quality of our air. A strong 
economy, and a healthy environment, are not mutually exclusive. 
The Clean Air Science Advisory Committee recommends lowering 
the ozone standards, and I think we should listen to our 
scientists. We can, and must, do better for current and future 
generations.
    I thank you, Mr. Chairman, and yield back.
    [The prepared statement of Ms. Johnson follows:]

   Prepared Statement of Committee on Science, Space, and Technology
                  Ranking Member Eddie Bernice Johnson

    Thank you, Chairman Smith, and thank you to our witnesses for being 
here this morning. We are here today to discuss the Environmental 
Protection Agency's proposal to lower the standard for ozone, the 
pollutant that causes smog, from the current standard of 75 parts per 
billion to a standard in the range of 65 to 70 parts per billion. The 
scientific evidence supports a lower standard for ozone than we 
currently have. According to the EPA's analysis, strengthening the 
standard will provide better protection for our children by preventing 
320,000 to 960,000 asthma attacks; it will keep them from missing 
330,000 to 1 million days in school; and it will stop between 750 and 
4,300 premature deaths.
    As someone who worked in the public health field before I entered 
politics, I am very sensitive to the problem poor air quality can have 
on the health of Americans, especially the young and the infirm. 
Unfortunately, those of us from the Dallas-Fort Worth region are very 
familiar with the negative effects of smog and are accustomed to seeing 
orange and red alerts warning us about being outside because the air is 
too polluted for it to be safe. In fact, the American LungAssociation 
gives the air quality in Dallas a grade of F--which means that the 
health of my constituents is seriously at risk.
    It's clear that air quality-related illnesses have a very real and 
destructive effect on the economy--on the order of hundreds of billions 
of dollars annually--and the benefits of reducing those effects will be 
seen throughout the country.
    Despite that, some will argue that EPA's proposed standard will 
kill jobs, decimate the industrial base, and result in irreparable 
economic disruption. This is not a new story. It's what's been said for 
decades about every major environmental and consumer protection--from 
catalytic converters to scrubbers to seatbelts. We all know that none 
of those predictions have come true. In fact, there is much more 
evidence showing that on balance, jobs are created and the economy 
expandsfollowing the passage of major reforms.
    For example, the U.S. economy grew by 64 percent in the years 
following passage of the Clean Air Act. Furthermore, in a report to 
Congress on the costs and benefits of federal regulations, OMB 
estimated that major rules promulgated by the EPA between 2003 and 2013 
had benefits between $165 billion and $850 billion, compared to costs 
of just $38 billion to $46 billion. That is a significant return on 
investment.
    And however much we might wish for a world where big environmental 
issues are addressed voluntarily by industry or through the workings of 
the free market, we all know that it just does not work that way. Now, 
more than ever, the American people need a strong EPA to protect their 
right to clean air and water.
    Let me be clear, I am not insensitive to some of the concerns we 
will likely hear today. But I want to remind everyone that the EPA--as 
required by law--must set the ozone standard at a level that will 
protect public health based on the science and not based on cost or 
technical feasibility. The health of Americans must come first. That 
said, I am confident, based on past precedents that ultimately these 
regulations act as a catalyst for the creation of new jobs and 
industrial sectors. Stricter pollutions limits force us to push the 
envelope of scientific innovation and create new technologies. 
According to the Department of Commerce, the United States is the 
world's largest producer of environmental protection technologies. 
Indeed at $782 billion, the market for environmental goods and services 
is comparable to the aerospace and pharmaceutical industries and 
presents important opportunities for U.S. industry.
    Thankfully, poll after poll shows that the public agrees with me 
and believes that the EPA should protect their right to clean air and 
water more than they believe that pollution is the price they must pay 
for economic security.
    Although significant progress has been made in the past 40 years, 
it is our job now to build upon this legacy and ensure that we continue 
to improve the quality of our air. A strong economy and a healthy 
environment are not mutually exclusive. The Clean Air Science Advisory 
Committee recommends lowering the ozone standard, and I think we should 
listen to our scientists. We can and must do better for current and 
future generations.
    Thank you, Mr. Chairman, and yield back the balance of my time.

    Chairman Smith. Thank you, Ms. Johnson, and I will 
introduce our witnesses.
    Our first witness is Mr. Harry Alford, the President, Chief 
Executive Officer, and co-founder of the National Black Chamber 
of Commerce. Mr. Alford put his leadership skills to work in a 
series of key sales and executive positions at Fortune 100 
companies such as Proctor and Gamble, Johnson and Johnson, and 
the Sara Lee Corporation. He is also an active member of the 
Board of Directors of the U.S. Chamber of Commerce, where he 
chairs the Government Oversight and Consumer Affairs Committee. 
Mr. Alford attended the University of Wisconsin, and received 
top honors as Company Commander at the Army's Officer Candidate 
School.
    Our next witness is Mr. Raymond Keating, the Chief 
Economist of the Small Business and Entrepreneurship Council. 
The Small Business and Entrepreneurship Council is a national 
non-partisan, non-profit advocacy organization that seeks to 
promote entrepreneurship and protect small business. Mr. 
Keating writes and speaks on a wide range of issues that impact 
the entrepreneurial sector of the economy. He received his 
Bachelor's Degree in Business Administration and Economics from 
St. Joseph's College, his Master's in Economics from New York 
University, and his MBA in Banking and Finance from Hofstra 
University.
    Our next witness is Dr. Mary Rice, a pulmonary and critical 
care physician at Beth Israel Deaconess Medical Center at 
Harvard Medical School in Boston. At Beth Israel Deaconess 
Medical Center, Dr. Rice cares for patients with pulmonary 
diseases in clinic and in the hospital. In addition, she is a 
member of the Environmental Health Policy Committee of the 
American Thoracic Society. Dr. Rice spends the majority of her 
time engaged in epidemiologic research and studies, and health 
effects of day to day and long term air pollution exposure in 
large cohort studies of children and adults. Dr. Rice received 
her M.D. from Harvard University.
    Our next witness is Dr. Allen S. Lefohn, President and 
Founder of A.S.L. and Associates. Dr. Lefohn has published over 
125 peer reviewed publications, edited four books, and 
participated in a number of panel presentations. During his 
almost 50 year career, Dr. Lefohn has focused on understanding 
the relative importance of background ozone. He also developed 
exposure response relationships and indices that describe the 
effects of ozone on vegetation and human health, as well as the 
analysis of air quality data in biologically relevant forms for 
assessment purposes. Dr. Lefohn is an emeritus editor of the 
journal ``Atmospheric Environment.'' He received his Ph.D. in 
physical chemistry from the University of California at 
Berkeley.
    I will now yield to the gentleman from California, Mr. 
Knight, to introduce our final witness, Mr. Eldon Heaston, who 
is the Executive Director of the Mojave Desert Air Quality 
Management District and the Antelope Valley AQMD. And the 
gentleman from California is recognized.
    Mr. Knight. Thank you, Mr. Chair. It is an honor to 
introduce a constituent of mine. Eldon Heaston was appointed 
executive director of the Mojave Desert Air Quality Management 
District in March 2006. During his 23 years with the district, 
Heaston has worked to build and uphold its reputation as one of 
the most progressive and accessible air districts in the state. 
Before joining the district, Heaston spent over 11 years in the 
aerospace and petrochemical industry, where he held various 
positions in operations, industrial hygiene, and environmental 
management.
    Heaston recently served six years as governor's appointee 
to the state's Inspection and Maintenance Review Committee, 
which evaluated the effectiveness of California's smog check 
program, and recommended program improvements. And I have a 
little bit of a connection to Eldon. My father created the 
Antelope Valley Air Quality Management District legislation in 
California. Mr. Heaston was very much a part of that, so, I 
thank you, Mr. Chair.
    Chairman Smith. Thank you, Mr. Knight. We will proceed with 
our testimony today. And, Mr. Alford, if you will begin?

               TESTIMONY OF MR. HARRY C. ALFORD,

                       PRESIDENT AND CEO,

               NATIONAL BLACK CHAMBER OF COMMERCE

    Mr. Alford. Good morning, Chairman Smith, Ranking Member 
Johnson, and distinguished Members of the Committee on Science, 
Space, and Technology. My name is Harry C. Alford, and I am the 
President and CEO of the National Black Chamber of Commerce. 
The NBCC represents 2.1 million black owned businesses within 
the United States. I am here to testify about the Environmental 
Protection Agency's proposal to lower the ozone National 
Ambient Air Quality Standards.
    Lowering the ozone standard, particularly to the level 
suggested by EPA, will almost certainly cause economic harm to 
the National Black Chamber of Commerce members, and will shut 
off huge parts of the country from economic development and job 
growth. As the country continues to recover from the recession, 
we should be finding ways to put Americans back to work, and to 
attract business here in the U.S. We should not be piling on 
yet another rushed, unreasonable regulation on the backs of 
American businesses.
    As you are aware, last November EPA proposed lowering the 
primary ozone standard to a range of 65 to 70 parts per 
billion. Now the agency is taking comments on lower the 
standard down to 60 parts per billion. The current 75 parts per 
billion standard was finalized in March 2008. Significantly, 
that standard is being implemented. In fact, the EPA only 
finalized the implementation guidelines for the 2008 standard 
last month. The comment period for the new proposal closes 
today, and, under a court order, EPA must finalize the rule by 
October the 1st, 2015.
    Last month the National Association of Manufacturers 
released an economic study by NERA Economic Consulting on the 
impacts of EPA lowering the ozone standard to 65 parts per 
billion. The study estimates that a 65 parts per billion 
standard would reduce the GDP by 140 billion, resulting in 1.4 
million fewer jobs, and it costs the average U.S. household 
$830 in lost consumption each year, from 2017 to 2040.
    One local area's business community is speaking out about 
feeling the negative impacts of the EPA ozone proposal. Baton 
Rouge, Louisiana, and the surrounding area, are home to many 
successful manufacturing and industrial facilities that help 
drive the economic livelihood of the area, and the country as a 
whole. In recent years, the state has worked hard to decrease 
ozone levels in Baton Rouge. Following a period of non-
attainment, Baton Rouge was found to be in compliance with the 
current 75 parts per billion ozone standard in April 2014.
    In 2014, the Baton Rouge area Chamber of Commerce worked 
with four chemical manufacturers who were investigating 
significant investments in the area. Two of the companies 
executed purchase agreements on sizable industrial locations, 
with the intent to develop them. Unfortunately, all four 
companies later decided to search elsewhere for their 
investments. The companies all indicated that EPA's ozone 
proposal, with the threat of the ozone standard being lowered, 
and the area falling back into non-attainment, influence their 
decisions to pull the plug on the projects in the Baton Rouge 
area.
    In addition to the adverse economic impacts of the EPA's 
ozone proposal, those already being felt, and the ones being 
estimated, I would like to bring to the Committee's attention 
the following additional concerns that the National Black 
Chamber of Commerce has with the proposal. First, EPA should 
retain current 75 parts per billion ozone standard, and fully 
implement it. States didn't even find out which of their 
counties would be designated as non-attainment until the 2008 
standard--under the 2008 standard until April 2012. 
Additionally, EPA did not finalize the necessarily 
implementation regulations and guidance for the 2008 standard 
until recently, in February 2015. States are committing time 
and money to meet the 2008 ozone standard, yet EPA now wants to 
move the goalposts in the middle of the game. This further 
strains what are already limited resources that states have for 
implementation, and fails to give states the chance to meet the 
current ozone standard.
    Secondly, compliance with the new proposal standard may be 
unachievable. Many areas have high background levels of ozone 
from vegetation wildfires, transport of ozone from Asia, 
Mexico, and other places. These areas may not be able to meet 
the proposed standard, even with the most expensive controls. 
Notably, the Grand Canyon would fail the proposed 70 parts per 
billion standard, and Yellowstone National Park could not meet 
the proposed 65 parts per billion.
    In conclusion, the NBCC and its members value and support 
clean air, clean water, and environmental quality. We also 
value and support economic growth, job creation, prosperity for 
our individual members, and this country as a whole. These are 
not mutually exclusive goals. We hope the EPA will hear the 
concerns of our organization and others, retain and fully 
implement the current 75 parts per billion standard. We 
appreciate the committee holding the hearing, and highlighting 
the critical issue. Thank you for the opportunity to testify. I 
look forward to answering your questions.
    [The prepared statement of Mr. Alford follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Smith. Thank you, Mr. Alford.
    Mr. Keating?

       TESTIMONY OF MR. RAYMOND KEATING, CHIEF ECONOMIST,

           SMALL BUSINESS & ENTREPRENEURSHIP COUNCIL

    Mr. Keating. Mr. Chairman, Ranking Member Johnson, Members 
of the Committee, thank you for hosting this important hearing 
today on the Environmental Protection Agency's proposed ozone 
standards. My name is Raymond Keating. I am Chief Economist 
with the Small Business and Entrepreneurship Council. We are a 
non-partisan, non-profit advocacy, research, and training 
organization dedicated to protecting small business, and 
advancing entrepreneurship. We have nearly 100,000 members, and 
we work with some 250,000 small business activists across the 
country.
    Regarding the EPA's proposal, SB Council is concerned about 
the considerable costs involved with these new regulations, 
including the resulting impact for entrepreneurship and small 
business. My testimony touches on three important points, the 
realities of regulation, economic costs in non-attainment, and 
disproportionate impact on small business and new business 
formation.
    In terms of the realities of regulation, as we look at the 
EPA's proposal, it must be made clear that the costs of 
regulations are real and significant facts of economic life, 
about which small businesses are painfully aware. Some 
policymakers seem unconcerned or dismissive about regulatory 
costs, even claiming that such government mandates and rules 
spur innovation, and related job gains. This view of regulation 
is very trouble.
    Economics 101 makes clear what to expect from increased 
regulation, that is higher costs for businesses and consumers, 
reduced market exchanges, and expanded political controls, 
resources allocated based on political decisions and 
influences, rather than via competition and consumer 
sovereignty, and, therefore, diminished economic growth. The 
tremendous amount of resources funneled into dealing with 
government regulation are not about innovation and new jobs, as 
some assert. Rather, they are about massive opportunity costs. 
That is, effectively, what is lost because resources must be 
used for complying with government regulations.
    In fact, the costs of regulation have been confirmed in an 
assortment of studies, such as the significant losses in 
economic growth, for example two percentage points lost 
annually on average due to federal regulation over several 
decades, as reported by economist John Dawson at Appalachian 
State University, and John Cedar at North Carolina State 
University. The $1.9 trillion cost of federal regulation 
annually, noted by Clyde Wayne Crews in his report ``Ten 
Thousand Commandments'', and the disproportionate burden of 
federal regulations on small businesses, as explained by a 
series of studies from the Small Business Administration's 
Office of Advocacy.
    Number two, on economic costs and non-attainment, the EPA's 
proposed ozone regulations promise to be no different in terms 
of imposing costs, except for the fact that these have been 
identified by many as being potentially the most costly federal 
regulations ever imposed. The NERA study has already been 
referenced, so I won't touch on that right now, but those 
numbers are certainly significant. And as NERA, the Business 
Roundtable, the American Chemistry Council and others show, 
significant portions of the nation are in non-attainment under 
the current ozone standards. That will expand significantly 
under the proposed EPA mandate.
    As for the disproportionate impact on small business, when 
you are talking about all sectors of the economy being 
negatively affected, directly or indirectly, by the EPA's new 
regulation, small business will be hit hardest, as is the case 
with nearly all regulations, and given that small businesses 
account for the overwhelming majority of firms across our 
economy. I will just cite a few industries very quickly that 
were noted in the NERA study to have negative impact.
    Among manufacturing firms, 75 percent have less than 20 
workers. Among key energy industries, 91 percent of employers 
in the oil and gas extraction businesses have less than 20 
workers. 82 percent of the support activities for oil and gas 
operations, less than 20 workers. 59 percent of coal mining 
firms actually have less than 20 workers. And 65 percent of 
support activities for coal mining, less than 20 workers. 
Chemical manufacturing, 62 percent, again, less than 20 
workers, so this is clearly about small business.
    Small business in non-attainment areas will have a 
difficult time starting up, expanding, and competing for 
offsets, as those offsets will be expensive, or perhaps not 
exist when needed. Compliance will be complex and costly. 
Economic opportunity and job creation will suffer. The expense 
and red tape will be a barrier to new startups and business 
formations. These regulations would hamper local efforts to 
spur new business creation, and could, in effect, serve as a 
cap on entrepreneurship and small business growth.
    Given what has already been achieved, what has not yet been 
implemented, and the significant costs, including for small 
business, that would come with stricter ozone mandates, one is 
left bewildered as to why the EPA is going down this path.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    [The prepared statement of Mr. Keating follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Smith. All right. Thank you, Mr. Keating.
    Dr. Rice?

                 TESTIMONY OF DR. MARY B. RICE,

        INSTRUCTOR IN MEDICINE, HARVARD MEDICAL SCHOOL,

             PULMONARY AND CRITICAL CARE PHYSICIAN,

                     DIVISION OF PULMONARY,

               CRITICAL CARE AND SLEEP MEDICINE,

        BETH ISRAEL DEACONESS MEDICAL CENTER, BOSTON MA

    Dr. Rice. Thank you, Mr. Chairman. I am Dr. Mary Rice. I am 
a pulmonary and critical care physician at Beth Israel 
Deaconess Medical Center at Harvard Medical School, and I care 
for adults with lung disease, many of whom suffer from asthma 
and Chronic Obstructive Pulmonary Disease, known as COPD. You 
have my written testimony before you, and there are just a few 
points that I would like to add to the discussion.
    First, ozone is bad for people with lung disease, and this 
has been known for decades. Ozone is a power oxidant that 
irritates the lung tissue, and damages the lung. Hundreds of 
research studies in different areas across the U.S. and around 
the globe have demonstrated that when people with common 
disease, like asthma and COPD, are exposed to ozone, they get 
sick.
    One of my patients with severe asthma tells me that on 
those hot ozone days in the summertime, he feels his chest 
tighten up, and he feels like he cannot get enough air. He 
stays home from work, and he uses his inhaler around the clock, 
but that is not enough, and that is when he calls me, asking 
for stronger medications. One summer his breathing difficulties 
were so severe that he was hospitalized twice in one summer.
    Now, this is just one story, but hundreds have studies have 
demonstrated that increases in ozone are associated with people 
having to increase the use of medications to control asthma, 
having to miss school or work to visit the doctor because their 
medications aren't strong enough, going to the emergency room 
for respiratory symptoms, and hospitalization for respiratory 
illness. And for some, especially the most vulnerable people, 
such as the elderly and people with COPD, high ozone days 
result in premature death.
    Second, what sometimes gets lost is that ozone pollution is 
a respiratory irritant for otherwise healthy people too, and 
research, including my own work in the Framingham Heart Study 
with my colleagues at the Harvard School of Public Health, has 
shown that when normal healthy adults are exposed to ozone 
levels above 60 parts per billion, their lungs do not function 
as well as when the ozone level is below 60.
    And, third, it doesn't matter where the ozone comes from, 
whether it is background ozone, transport ozone from other 
countries, ozone created by pollution right here in the U.S., 
our lungs can't tell the difference. Ozone is harmful to our 
lungs regardless of its source, and it is especially dangerous 
for people with lung disease.
    Fourth, when people in the medical community talk about 
ozone's impact on public health, what we are really talking 
about is the accumulation of all the personal stories that make 
up America. And I am sure that many people in this room have 
personal stories involving respiratory diseases because they 
are just so common. I am a physician and a researcher, but my 
most important job is my role as a mother to three children 
under the age of six, and one of them, my 1-year-old son, has 
had two emergency room visits and one hospitalization for 
respiratory disease.
    Ozone has been found to increase the risk of emergency room 
visits for respiratory infection in young children under the 
age of four, and when my son develops a cough, I am terrified 
that this could mean the next ambulance ride. And when he is 
sick, I cannot go to work, I can't take care of my patients, or 
my husband can't go to work, or we have to leave our sick child 
home with a caretaker. But we are more fortunate than many 
Americans, some of whom risk losing their job, or struggle to 
pay for the emergency room visit when they or a loved one 
suffers and acute respiratory illness, such as an asthma 
attack.
    Ozone above 60 parts per billion is harmful to public 
health. It increases my son's risk of the next hospital visit. 
Nationwide, ozone levels above 60 have been estimated to 
increase the number of acute respiratory illnesses by 10 
million per year in the United States. My son, and every 
American, deserve an ozone standard that is protective.
    Lastly, the science is strong and compelling. Since 2006, 
when the Bush Administration EPA looked at the ozone standard, 
the American Thoracic Society recommended a more protective 
standard, 60 parts per billion. We were confident of our 
recommendation then, and we are more confident of our 
recommendation today. The more scientists and doctors have 
studied the health effects of ozone, the more confident the 
medical community has become about ozone's harmful effects on 
the respiratory health of children, adults, and the elderly.
    And the EPA is not basing their proposed standard on one 
study or 10 studies. The proposed rule is based on literally 
hundreds of studies that demonstrate that the current standard 
is not protective. These studies include multiple scientific 
methods, including animal toxicology studies, human exposure 
studies, observational epidemiology studies, natural experiment 
studies, meta-analyses that combine the results of multiple 
studies, and the evidence overwhelmingly indicates that the 
current ozone is not protective of public health, and that 
levels in the range of 60 to 75 parts per billion are harming 
people with lung disease.
    On behalf of the American Thoracic Society, I urge the EPA 
and the Administration to finalize a more protective ozone 
standard of 60 parts per billion. I would be happy to take 
questions. Thank you.
    [The prepared statement of Dr. Rice follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Smith. Thank you, Dr. Rice.
    Dr. Lefohn?

               TESTIMONY OF DR. ALLEN S. LEFOHN,

                 PRESIDENT, A.S.L. & ASSOCIATES

    Dr. Lefohn. Thank you. Thank you very much for inviting me 
here today. It is a long way from Last Chance Gulch in Helena, 
Montana.
    My name is Allen Lefohn. As the Chairman has indicated, I 
have a Ph.D. from UC Berkeley. I perform research for 
environmental organizations, federal and tribal governments, 
the U.S. Congress, the White House, the United Nations, and 
industrial clients. I have published over 125 peer reviewed 
publications, and serve as an executive editor of ``Atmospheric 
Environment.'' Today I am speaking on my own behalf.
    Background ozone plays an important role in affecting the 
selection of the level of the human health standard. In my 
testimony I will discuss how current levels of background ozone 
make up a substantial portion of the observed ozone across the 
United States. As emissions are reduced, EPA has estimated 
cumulative mortality and morbidity health risks that will be 
heavily impacted by background ozone. EPA's margin of safety is 
influence by background ozone.
    Why is background important in the standard setting 
process? Background ozone is continually contributing to 
observed concentrations that influence risk estimates across 
the entire United States. Background also contributes to 
exceedances of the standard and attainability.
    What happens to ozone concentrations when emissions are 
reduced to attain the ozone standard? Efforts to control ozone 
will not only reduce peak ozone concentrations, but will cause 
the low level concentrations to shift upward. The result is 
that mid-range values, 25 to 55 parts per billion, will 
dominate the distribution of concentrations. EPA's mortality 
and morbidity risk estimates are dominated by the mid-range 
concentrations. Background makes up a large percentage of these 
concentrations.
    What is EPA's conclusion about the relative importance of 
background ozone? EPA, and our international research team's 
findings, agree that background ozone makes up a relatively 
large percentage, 70 to greater than 80 percent, of the 
observed ozone within the intermountain western U.S., and along 
the northern and southern U.S. border. The orange and red 
circles in this slide illustrate where the large percentages 
occur. For many low elevation sites across the U.S., the 
contribution of background ranges from 50 percent to greater 
than 80 percent, as illustrated by the green, yellow, orange, 
and red colored circles.
    What is EPA's opinion on the role that background plays in 
attaining alternative ozone standards across the U.S.? EPA 
agrees that there is no question that as the levels of 
potential alternative standards are lowered, background will 
represent increasingly larger percentages of total ozone, and 
may subsequently complicate efforts to attain these potential 
standards.
    How much does background contribute currently within 
specific concentration ranges? Yellowstone National Park in 
Wyoming is dominated by background ozone throughout the year, 
with minor anthropogenic contributions. In this slide, the 
relative contribution of background, noted by blue, to 
anthropogenic, noted by red, within each concentration level 
shows that background contributes greater than 80 percent, 
including the mid-range, which is an important range that I 
have indicated influences EPA's human health risk estimates. In 
the next slide, for Denver, the contribution of background 
within the mid-range concentrations is approximately 75 to 80 
percent. For Los Angeles, a site heavily influence by 
anthropogenic emissions, background contributes 60 to 80 
percent in the mid-range.
    How does background influence the EPA's human health risk 
estimates? As emissions are reduced, background influenced 
concentrations in the mid-range dominate the cumulative 
mortality health risks. In some cases, 90 percent or more of 
the accumulated risk is associated with mid-range for cities 
across the U.S. The different colors represent the different 
standard scenarios. Results shown here are similar for all 12 
cities in the epidemiological risk analysis. The Administrator 
has placed greater weight on controlled human exposure studies, 
rather than on epidemiological results.
    As emissions are reduced, we investigated the degree to 
which EPA's lung function risk estimates are affected by the 
background influenced concentrations in mid-range for Los 
Angeles, Denver, Houston, Philadelphia, and Boston. We found 
that three, Los Angeles, Denver, and Houston, of the five 
cities, a large percentage of the cumulative frequency of 
responses is affected by background influence mid-range.
    In conclusion, background will be a regional attainment 
problem in the west and the intermountain west. There is no 
doubt about that. The EPA Administrator will use the background 
influenced EPA mortality, morbidity, and lung function risk 
estimates to provide a margin of safety when setting the ozone 
standard. Background cannot be ignored, and plays an important 
role in informing the administrator on the final selection of 
the level of the ozone standard.
    Thank you very much.
    [The prepared statement of Dr. Lefohn follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
    Chairman Smith. Thank you, Dr. Lefohn.
    And Mr. Heaston?

                TESTIMONY OF MR. ELDON HEASTON,

            EXECUTIVE DIRECTOR, MOJAVE DESERT AQMD,

                      ANTELOPE VALLEY AQMD

    Mr. Heaston. Good morning. I am Eldon Heaston, the 
Executive Director, Air Pollution Control Officer for the 
Mojave Desert Air Quality Management District, and also for the 
Antelope Valley Air Quality Management District. I am here as 
one of the people who will have to implement the Clean Air Act 
provisions that will be triggered if the new ozone NAAQS is 
changed. My two districts are located in inland Southern 
California, adjacent to, and directly downwind from the Greater 
Los Angeles area. Together my districts cover more than 21,000 
square miles in three different counties. Area-wise, my 
districts are as big as some states.
    Antelope and Mojave are overwhelmingly impacted by 
transported NOX and VOC, primarily from the Los Angeles basin. 
It is this simple fact that drives most of my concerns with the 
proposed ozone standard. The ozone precursor inventory for 
Antelope Valley and Mojave is approximately 192 tons a day. 
This is in comparison to roughly 1,000 or 1,100 tons per day in 
the South Coast Air District, our biggest upwind contributor.
    So what does this mean? Well, to be blunt, we could shut 
everything down in the desert, no industry, no transportation, 
no housing, no nothing, and we would still have exceedances of 
the current 2008 standard. In fact, my district will never 
attain the current standard unless and until our upwind 
neighbors manage to do so. Our upwind neighbors, South Coast 
and the San Joaquin Valley, are struggling to find sufficient 
emission reductions to attain even the current ozone standard. 
Their plans rely heavily on technology forcing measures, and 
the so-called black box reductions which may not, if ever, be 
technologically or economically viable. I fear that if the 
proposed ozone standards are enacted that the entire southern 
half of California will need to be an all-electric zone to meet 
the requirements of the Clean Air Act.
    I am also concerned that some of the lower standard 
proposals are getting seriously close to the ambient 
background. So, I mean, how do you improve air quality better 
than ambient? Another problem with this is that the closer the 
standard gets to background levels, the greater the impact will 
be of long range transported pollutants from other countries 
and ships at sea. These are sources over which you and I have 
no control.
    In general, the Clean Air Act has done a pretty good job of 
controlling stationary source emissions. How can we tell? Well, 
the emissions inventory has shifted from being mostly 
stationary or industrial in nature to be more mobile, and area 
source driven. In Mojave and Antelope, mobiles run 61 to 66 
percent of our ozone precursors. In South Coast and San 
Joaquin, it is 85 and 80 percent respectively. To achieve 
attainment, we are going to need to do more about emissions 
from planes, trains, ships, and automobiles. Under the Act, a 
change in the NAAQS is not going to mandate mobile controls to 
the same extent as required for stationary source emissions.
    Even if you do control the mobile sources themselves more 
effectively, there still remains the problem that, in my 
district, over 140,000 residents commute over 60 miles one way 
to jobs into the L.A. basin. Inherently the more miles a 
vehicle travels, the more pollution on a per vehicle basis. 
This means that one of the best, most efficient mobile source 
control for my district is to move the jobs closer to the 
people. Unfortunately, this will be more difficult with a lower 
standard.
    The Clean Air Act amendments have been in existence for 
over 20 years now. Given where we started, we have come a long 
way, and we are making progress. Antelope and Mojave have 
managed to attain the old one hour standard. We are only now 
beginning to implement the current plans and rules under the 
2008 8-hour standard. Unfortunately, the proposed new standards 
will change the playing field again. I fear that the net 
result, at least in our district, will be to confuse the public 
into thinking that air pollution is becoming worse, when, 
actually, it is getting better. I also am concerned that it is 
going to make it extremely difficult for industry to comply so 
soon after upgrading to comply with the current standards. 
Despite the fact that it gives me job security, it seems we are 
chasing an ever-shifting goal.
    One of the things that I think we can all agree upon is 
that the intent of the NAAQS is to protect public health. It is 
our duty, as responsible government officials, to do this in a 
cost-efficient manner by getting the most health protection for 
each dollar that we spend on pollution control. A good portion 
of our district is open desert, with very little population per 
square mile. Part of that area is currently unclassified. 
However, if the entire district becomes non-attainment, the 
cost of compliance for additional industrial sources in the 
outlying areas will increase substantially, hurting even more 
small business.
    As company compliance spending increases, they generally 
cut costs elsewhere, often in personnel. As you are no doubt 
aware, economic opportunity and economic status also have a 
direct correlation with public health. I fear that the proposed 
new NAAQS might improve air quality at the expense of 
increasing the health burden caused by the lack of economic 
opportunity.
    I appreciate very much the opportunity to come and testify 
here today, and if there is any additional information I can 
provide, I will be glad to answer your questions.
    [The prepared statement of Mr. Heaston follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
           
    Chairman Smith. Thank you, Mr. Heaston, and I will 
recognize myself for questions. And, Mr. Alford, let me direct 
my first question to you.
    And that is, you touched upon this in your testimony, but 
who would be hit the hardest by this proposed rule?
    Mr. Alford. Those with fewer resources. People in poverty, 
people unemployed, urban inner city areas, rural areas. You 
know, people who don't have access to jobs, or their job may be 
tentative, or tenuous, and anything like this occurring 
eliminates the possibility. Jobs are the linchpin to quality of 
life, and to health.
    Chairman Smith. Thank you, Mr. Alford, appreciate that.
    Mr. Keating, why would small businesses in non-attainment 
areas have a particularly difficult time complying with the 
proposed rule?
    Mr. Keating. Yeah, think about it from a small business 
perspective. The costs, you know, you have seen markets develop 
in some of these areas for these kind of trade-offs, and they 
are enormously expensive. The regulatory burdens, the 
paperwork, all of those things, when you factor that in for a 
small business owner, essentially is a stop sign. It is not 
even a yield sign. So, again, when you look at the cost of 
regulations, when you see how much more costly regulations are 
for small businesses versus large businesses, you look at the--
on the environmental front, where, again, the difference is 
even greater, this is a clear negative for starting up and 
expanding your business.
    Chairman Smith. Okay. Thank you, Mr. Keating.
    And, Dr. Lefohn, does this proposed rule rely primarily 
upon just one study, and if so, what are the limitations of 
that study?
    Dr. Lefohn. Looking at what the Administrator has placed 
into the proposal, it is clear to me that the Schlagele, et al 
experiment from 2009 is the key experiment. What Ed Schlagele 
did--and I designed the exposures that he used, along with Dr. 
Milan Hazucha from UNC, we designed the exposures--what Ed 
Schlagele did was expose college students to various levels of 
ozone. And in that experiment, he found a statistically 
significant effect at what I had designed for a 70 part per 
billion exposure, variable exposure, meaning raising and 
lowering the concentrations over 6.6 hours. He attained 72 
parts per billion over the time period. The net result is the 
Administrator has clearly shown and stated within the proposal 
that 72 parts per billion is the line that she is going to use.
    She then will superimpose on top of that line a margin of 
safety. That margin of safety, she has said, she will feel 
comfortable in getting down to 70 parts per billion, or to 65 
parts per billion. But is the--but it is the Schlagel, et al 
experiment that appears to be driving the----
    Chairman Smith. Right.
    Dr. Lefohn. --proposal.
    Chairman Smith. And isn't it true that this experiment on 
which the rule primarily rests only had 31 participants, or is 
that----
    Dr. Lefohn. That is correct. There were 31, but a lot of 
the experiments are--I think in this case there were supposed 
to be 32, but there were----
    Chairman Smith. Okay.
    Dr. Lefohn. --but there were 31----
    Chairman Smith. Okay.
    Dr. Lefohn. --that were used. But the bottom line is this, 
is that those experiments are very expensive and lengthy to do.
    The experiment itself, I think that the debate concerning 
the level of the standard needs to focus on the strengths and 
weaknesses of Ed Schlagele's experiment, and also on the margin 
of safety to----
    Chairman Smith. Okay.
    Dr. Lefohn. --some of the quantification that will go into 
that.
    Chairman Smith. Okay. Thank you, Dr. Lefohn.
    And, Mr. Heaston, many areas of California are not in 
attainment. Does the technology even exist to allow these areas 
to comply with the proposed rule?
    Mr. Heaston. Right now there is still substantial--what we 
call black boxes--I referenced those in my testimony, that 
those technologies haven't been developed, and----
    Chairman Smith. Right.
    Mr. Heaston. --they were heavily relied on in order to meet 
their attainment----
    Chairman Smith. So as a practical matter, how can people 
comply with the rule if the technologies don't exist? Or is 
that a question----
    Mr. Heaston. We have--as an air district, you have to come 
up with--means. You have to either go to other categories, or 
reduce in other areas. If you can't get it one particular area, 
you would have to move over to another category in order to do 
it. So someone else would have to--some other area of emissions 
in your district would have to be lowered to make up the 
difference. Everything has to come out, you know, to 
attainment.
    Chairman Smith. Okay. Thank you, Mr. Heaston. That 
concludes my questions, and the gentlewoman from Texas is 
recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman. Before I 
begin my questions, I have a few items I would like to submit 
for the record. First I have two articles from the Center for 
Public Integrity, one that provides a clear overview of the 
problems ozone causes, and the history of intense lobbying that 
surrounds this issue, including the American Petroleum 
Institute's efforts to convince America that trees cause as 
much ozone pollution as cars.
    The second article describes how the State of Texas has 
fought against strict ozone standards in tandem with industry, 
despite calls from Texans for clean air. Also, since we will 
likely be discussing the costs associated with the new ozone 
standard, I have here a study sponsored by the Nature 
Conservancy and the Dow Chemical Company, which concluded that 
re-forestation could be a viable, novel approach for abating 
ground level ozone pollution that complements conventional 
technology-based controls.
    Additionally, I have a letter from the Environmental 
Defense Fund that highlights the sky is falling claims from 
industry, and the true cost of inaction. The cost to families, 
the cost to taxpayers, the cost to hospitals, and it goes on--
--
    Chairman Smith. Without----
    Ms. Johnson. --affected by ozone. And finally, I have an 
article from one of our witnesses, Dr. Rice, which outlines the 
scientific evidence in support of lower ozone standards. And I 
ask unanimous consent that these items be included in the 
record.
    Chairman Smith. Without objection, those four items will be 
made a part of the record.
    [The information appears in Appendix II]
    Chairman Smith. And although the clock has been running, we 
won't subtract the time you took to read those excerpts from 
your time for questions, so we will start over again, and give 
the Ranking Member five minutes for questions.
    Ms. Johnson. Thank you very much, Mr. Chairman, you are 
getting better.
    In your testimony, Dr. Rice, you state that while the 
recommended standards of 60 parts per billion endorsed by the 
physician community has not changed, the scientific evidence 
supporting the recommendation has significantly strengthened. 
You reviewed some of this new scientific evidence in your 
testimony, but can you please go over it one more time? How has 
the body of scientific evidence changed over the last seven 
years, and is there a particular set of studies or results that 
have significantly advanced our understanding of the impacts of 
ozone on public health?
    Dr. Rice. Certainly, Congresswoman, thank you. So nearly 
ten years ago, in 2006, the American Thoracic Society 
recommended a 60 part per billion standard, as you discussed, 
and that was based on the evidence available at that time. And 
since that time, we have been able to study the effects of 
ozone, both in the U.S. and in Europe, as ozone levels have 
continued to decline, thanks to the successes of the Clean Air 
Act that we have already realized. And that has allowed us to 
study--to have a larger number of studies where ozone levels 
are lower, with many studies where ozone levels average in the 
ranges of 30s, 40s, 50s, and 60s. And I would say, as a 
scientist, I look for consistency among multiple studies before 
I begin to conclude that a particular exposure is associated 
with a particular health effect. And this has really been the 
case with research on ozone, because there has been remarkable 
consistency, both from the evidence that was available in 2006, 
and the additional evidence that has accumulated over the last 
8 to 9 years.
    You asked whether there are particular sets of studies that 
I would highlight, and I would say that there are now more 
sophisticated studies that examine the effects of multiple 
pollutants, not just one pollutant at a time, to try to 
disentangle the effects of the different pollutants, because 
some of them share the same sources. And the studies have 
generally found that the effect of ozone is independent of 
other pollutants, that it is not the same health effect as, for 
example, particulate matter. And there are also now a 
significantly larger number of studies looking at health 
effects in children, and particularly respiratory infection in 
very young children. That evidence has significantly 
strengthened over the last 8 to nine years. And perhaps a third 
set of studies I would emphasize is the body of evidence 
surrounding the association between ozone exposure and 
mortality. That association is very robust, whether you look 
here in the United States, you look in Europe, you look in 
South America. Combining the results of multiple studies, that 
association is seen over and over again.
    Ms. Johnson. Thank you. I know that some of your research 
has focused on the health implications of climate change. It is 
my understanding that, while EPA projections show that ozone 
levels will continue to decline, over the next decade 
especially, if standards such as the one we are discussing 
today are implement, the research also indicates that 
temperature changes associated with climate change have the 
potential to offset improvements in ozone air quality. Can you 
please comment on this, and the health implications of climate 
change, especially changes in ozone?
    Dr. Rice. Certainly. Ozone is a secondary pollutant, and it 
is formed as a result of chemical reactions between nitrogen 
oxides, volatile organic compounds, and those reactions are 
promoted in the presence of higher temperatures and sunlight. 
And so one of the major health consequences of high temperature 
events is also high ozone events, and that is actually what 
experience has shown, as we have seen a number of heat waves in 
the last decade. When those heat waves have happened, ozone 
levels have reached dangerously high levels. And because of 
that, we have seen higher rates of admissions for respiratory 
disease, and higher mortality. That has gotten, certainly, a 
lot of attention in the press during these high temperature 
events, heat waves.
    And when scientists have gone back to try to determine what 
the causes of those increases in mortality have been, they 
found that some of the increased death is due to the 
temperature itself, but some of that higher death is due to the 
higher ozone levels that accompany the higher temperatures. So 
that is just all the more reason, with the change in climate, 
that we need an ozone standard that is protective.
    Ms. Johnson. Thank you very much. Mr. Chairman, my time 
has----
    Chairman Smith. Okay. Thank you, Ms. Johnson. The gentleman 
from Florida, Mr. Posey, is recognized for his questions.
    Mr. Posey. Thank you, Mr. Chairman. Everybody wants clean 
air and clean water. And I really love the quote of Mr. Alford, 
with the National Black Chamber of Commerce and its members, 
when he said they value and support clean air, clean water, and 
environmental quality. We also value and support economic 
growth, job creation, and prosperity for our individual 
members, and this country as a whole. These are not mutually 
exclusive goals. We hope EPA will hear the concerns of our 
organization and others, and so on.
    Very well said, and, you know, what the EPA is proposing at 
this point can harm not only businesses that we have talked 
about today, we have heard a lot about the businesses it would 
harm, but it could particularly harm seniors. And not just 
seniors in my district, but seniors across the nation with 
higher heating bills, higher utility bills, higher 
pharmaceutical bills, and on, and on, and on.
    And so, essentially, whether we want to say it in such 
frank words or not, but they are proposing a hidden tax on 
consumers, because somebody has got to pay for all this stuff, 
and it is going to be the consumer that does that. And you all 
seem like well-informed witnesses, and I appreciate all of you 
appearing here today. I would just like to ask each one of you 
your opinion of how much you think the proposed regulations are 
going to cost the average American family. Let us start with 
Mr. Alford, and go from left to right.
    Mr. Alford. I think it is going to be a tremendous amount. 
I think it is going to cause loss of jobs. I think it is going 
to cause loss of homes. I think it is going to cause education 
being denied, and good health being paid for. I think it is 
serious.
    Mr. Posey. Okay.
    Mr. Alford. I hope I answered it.
    Mr. Posey. Thank you.
    Mr. Keating. I think it is significant. The--when you talk 
about the link between wealth creation, and a better 
environment, and improved health, that is absolute. We see that 
across nations. And it is also critical to understand that 
increased regulation his productivity the most. There is a 
clear negative impact on productivity. Study--and study after 
study shows that. And guess what, productivity is linked to 
income. So if we want to have not only job creation, but higher 
incomes, this is not the way to go. It is a clear negative.
    Dr. Rice. We are already paying for the cost of ozone 
pollution, and lowering the standard will benefit the health of 
many Americans. So just to take the example of where the 
evidence is most robust that ozone contributes to asthma 
exacerbations--so take just one asthma exacerbation. You have 
the cost of a doctor's visit, you have the cost of the 
medications that the doctor prescribes to treat that asthma 
exacerbation. You may have the cost of an emergency room visit, 
if the patient's asthma cannot be controlled with medications. 
You might have the cost of a hospitalization.
    Mr. Posey. You think these costs are consistent with the 
upgraded requirement, then?
    Dr. Rice. I am saying that the----
    Mr. Posey. My question is how much do you think the cost 
will be to the average family if this policy is implemented?
    Dr. Rice. I am a physician. I am not an expert on the----
    Mr. Posey. Then just say I don't know. That is allowable 
here.
    Dr. Rice. --but there are costs that are equally important 
that are not being discussed, and those are the human health 
costs.
    Mr. Posey. Right. That wasn't the question. I would 
appreciate it if you would answer my question, if you can.
    Dr. Lefohn. Thank you very much for the question. In my 
particular case, I am a scientist, and so therefore I am not an 
economist, who understands the cost and the benefit. However, 
when background ozone contributes major, major role--plays a 
major role in the total observed concentration, the implication 
is it is going to take a lot of cost, a lot of reduction 
effort, to attain whatever level of the standard you are trying 
to get to. And the point being this, is that the red and the 
blue--the red, white, and blue figure I showed earlier, with 
the mostly blue, with a little bit of red, that little bit of 
red is going to be very costly to get rid of in some of those 
areas.
    So, therefore, even if people say it doesn't matter what 
background is that it is the total observed concentration that 
is important. It is the relative contribution of background 
that will determine the amount of effort and the amount of cost 
associated with that reduction. Thank you.
    Mr. Posey. Okay.
    Mr. Heaston. I would say that of course the cost is going 
to show up in the price of goods and services. Anytime 
regulations go into effect, there is an ancillary cost to that, 
and so I wouldn't be able to give a number, because that is way 
out of my field, but certainly it is going to cost the 
consumers more.
    Mr. Posey. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Posey. The gentlewoman from 
Oregon, Ms. Bonamici, is recognized for her questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to the panel for this very important discussion. I want to 
start by asking for unanimous consent to enter into the record 
a letter from more than 1,000 physicians, nurses, respiratory 
therapists, and public health professionals regarding ozone, 
and the importance of a protective National Ambient Air Quality 
Standard.
    Chairman Smith. Okay. Without objection, made a part of the 
record.
    [The information appears in Appendix II]
    Ms. Bonamici. Thank you, Mr. Chairman. Everyone on this 
Committee agrees that we need clean air, and everyone should 
agree that we have seen some great improvements in air quality 
since the passage of the Clean Air Act. And the improvements 
can be attributed in part to the requirement that the EPA 
determine air quality standards based on the levels requisite 
to protect public health, rather than by cost or ease of 
implementation. Now, that in no way means that those of us who 
support that determination do not care about businesses or 
jobs. Of course we do. But the Clean Air Act requires the EPA 
to set the standard for ozone at a level that will protect 
public health with an adequate margin of safety.
    Now, it seems obvious--for example, Dr. Rice, you are a 
medical doctor. You don't make your medical diagnosis 
contingent on the cost of treatment. You don't say to your 
patient, this is what you can afford, so this is what I am 
going to diagnose. So can you just talk briefly about the 
importance of making that determination of what it takes to 
protect public health in a way that is disconnected from the 
cost associated? And I do want to save time for another 
question. Thank you.
    Dr. Rice. Thank you, Congresswoman. Yes, the EPA is 
obligated to set the standard based on a level that is 
considered to be adequately protecting public health, with an 
adequate margin of safety, and costs are not supposed to factor 
into this decision. And I think patient care is a very good 
analogy, and that is what I am familiar with, and an analogy I 
would give is if I am making a diagnosis. So, for example, if a 
patient is in the ICU, I might diagnose them with pneumonia due 
to a bacterial infection. My diagnosis is not contingent on the 
costs and the details of the treatment.
    And, similarly, I think, with respect to the science on 
ozone pollution, that is the stage that the medical and 
scientific community is at right now. We have made a diagnosis. 
It is clear, and I would say indisputable, that ozone is 
harmful to human health. And that is----
    Ms. Bonamici. Thank you, Dr. Rice. And I know, since the 
passage of the Clean Air Act, there have been technological 
improvements, a lot of steps that have been taken by states and 
by industry to meet those standards. Dr. Rice, I understand 
that EPA and others have estimated the benefits by achieving a 
lower ozone standard, and specifically--and I want to ask you 
to follow up on your response to Mr. Posey's question.
    Specifically, the EPA has estimated that an ozone standard 
of 65 parts per billion would generate an estimated 19 to $38 
billion worth of benefits, including a range of areas from the 
number of premature deaths avoided, to the number of asthma 
attacks that can be prevented in children. And we talked about, 
you know, some of the other witnesses talked about how this 
would impact jobs and small businesses, but people can't go to 
work if they are sick or hospitalized. So can you describe some 
of the other benefits that the EPA and others have estimated 
from an ozone standard--let us just take the range of 65 to 70 
parts per billion. What are some of the savings in costs----
    Dr. Rice. Certainly. So the EPA has taken into account, as 
you said, the savings from avoided premature mortality, the 
savings from avoided asthma admissions. There are also 
financial benefits that the EPA and others have taken into 
account in their analyses, looking at the medication use 
associated with asthma exacerbations and respiratory illness. 
Avoided missed school days in children, avoided work days in 
adults who have respiratory disease, adult use for medication 
for asthma, and other exacerbations.
    In addition to the EPA analysis, there is a different kind 
of analysis that was done and published in 2012 that looked at 
the difference between full attainment of a 65 part per billion 
and a 75 part per billion ozone standard, and found sizeable 
differences in mortality benefits, acute respiratory symptoms, 
and also millions of lost school days in children.
    Ms. Bonamici. Thank you. And I have just a few more 
seconds. I want to ask Mr. Heaston, I hope I pronounced your 
name correctly--it is my understanding that the EPA is planning 
to revise its exceptional event rule, which is a tool to handle 
events like wildfires and ozone intrusions, stratosphere ozone 
intrusions. What recommendations would you have for EPA on 
revising that rule?
    Mr. Heaston. Well, we would certainly want to encourage it, 
as--at--because there are different ways that--like, 
meteorology plays a part in whether you could have a day--you 
could, you know, you can just have bad meteorology that causes 
you to have an exceedance that exacerbates the issue, and there 
may not be any control for that. And those kinds of things 
would be important. Obviously wildfires can also have an effect 
on that. They have already started to work in that area 
cooperatively to address it, especially--PM is another area 
where we are already working to do that.
    Ms. Bonamici. Thank you so much. My time has expired. I 
yield back. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Bonamici. The gentleman from 
Oklahoma, Mr. Bridenstine, is recognized for his questions.
    Mr. Bridenstine. Thank you, Mr. Chairman. The new proposed 
National Ambient Air Quality Standards for ozone, which would 
lower the allowable level to--the ground level ozone to 65 
parts per billion will cost the American economy $1.7 
trillion--I think, Mr. Alford, you mentioned that--$1.7 
trillion from 2017 to 2040, according to a recent report from 
NERA Economic Consulting. With unanimous consent, Mr. Chairman, 
I would like to enter this report into the record.
    Chairman Smith. Without objection, that will be made a part 
of the record.
    [The information appears in Appendix II]
    Mr. Bridenstine. So that is $1.7 trillion is what it will 
cost the GDP from 2017 to 2040, according to this NERA Economic 
Consulting report. I would also ask unanimous consent to place 
into the record a statement from the American Chemistry 
Council, and a letter to EPA Administrator McCarthy signed by 
11 governors, including my own governor, Mary Fallin from 
Oklahoma.
    Chairman Smith. Without objection.
    [The information appears in Appendix II]
    Mr. Bridenstine. So in Oklahoma--my entire state of 
Oklahoma is within attainment, and we are very proud of that. 
And I would also tell you that even though we are in 
attainment, we are reducing ozone levels as we speak. The mayor 
of Tulsa, Dewey Bartlett, has been working on this and his 
administration. Our county commissioners have been working on 
this, with their administrations.
    This is important to us, because in Tulsa, Oklahoma, we 
love our city. We--the suburbs, we all want to see our region, 
and want to see the State of Oklahoma do well. I can tell you 
Governor Mary Fallin is committed to this. This is a big deal 
for all of us from Oklahoma. I would also say we are in 
attainment. This is not something where we need, you know, 
bureaucrats from Washington, D.C., coming into the State of 
Oklahoma to tell us that we need cleaner air, because guess 
what, we want cleaner air, and we are working towards that 
without the bureaucrats in Washington, D.C., telling us how to 
do it.
    I do have some questions, just out of curiosity, from some 
of the stuff I have heard and the testimony, for Dr. Rice. As 
you know, we are working to decrease ozone in Oklahoma. 
Nationally has ozone been decreasing or increasing since 1980?
    Dr. Rice. So nationally ozone has been overall decreasing. 
There have been some ups and downs, because, as I mentioned 
before, climate also plays in a role in affecting ozone levels, 
and that might be part of the reason for some of the 
variability.
    Mr. Bridenstine. So have the asthma rates been increasing 
or decreasing?
    Dr. Rice. So asthma rates have been increasing.
    Mr. Bridenstine. So ozone has been decreasing, and asthma 
rates have been increasing?
    Dr. Rice. That is right.
    Mr. Bridenstine. Do you have an explanation for that?
    Dr. Rice. The question of asthma prevalence rising is a 
separate question. That has to do with what causes asthma. 
There is no overall conclusion from the scientific literature 
that ozone is a cause of asthma and makes asthma worse.
    Mr. Bridenstine. So, clearly there is no correlation 
between ozone increasing and higher rates of asthma?
    Dr. Rice. So you are, again, talking about the prevalence 
of asthma, how many people have asthma, but the issue of asthma 
exacerbations is a separate issue, and ozone has been found to 
exacerbate asthma. And asthma exacerbations, when you correct 
it for the number of people who have asthma, that is--to my 
knowledge has not been changing.
    Mr. Bridenstine. So ozone is an outdoor air pollutant. Most 
people spend more time indoors, and rarely are exposed to 
significant levels of ozone. What is the role of indoor sources 
for the increase of asthma incidences? Like the indoor sources 
for the increase of asthma.
    Dr. Rice. So, again, you are talking about the increased 
incidents of asthma, which is not related to ozone. And I am 
not sure I agree with your statement that people don't have 
significant outdoor exposures. I think especially children, who 
spend time outdoors playing, have--spend a large part of their 
day outdoors, and they should.
    Mr. Bridenstine. Are there indoor sources that create more 
asthma problems?
    Dr. Rice. Of ozone?
    Mr. Bridenstine. No, are there indoor--like--when--I am 
talking about the correlation. So are there indoor exposures to 
things that create more asthma problems, or that exacerbate the 
asthma that people already have?
    Dr. Rice. Absolutely. There is very large literature on 
that as well. There are a number of things that have been 
identified that make asthma worse. One of them is indoor 
allergens, so allergic people tend to be more sensitive to 
things that they are allergic to, and that can make their 
asthma worse. So if they are allergic to mice or cockroaches, 
for example, that has been found to exacerbate asthma. That is 
just one example of an indoor exposure.
    Mr. Bridenstine. Data shows that hospital admissions for 
asthma are actually higher in the winter, when ozone 
concentration levels are typically at their lowest. Can you 
explain that?
    Dr. Rice. So, as I mentioned, there is a lot of different 
exposures that contribute to asthma, and ozone is just one of 
those exposures. It is complicated.
    Mr. Bridenstine. In your written testimony, you have a 
figure entitled ``Exposure Response Curve for the Relation 
Between Exposure to Ozone and the Risk of Death from 
Respiratory Causes''. The X axis--in terms of the daily one 
hour maximum, the X axis, is a daily 1 hour maximum ozone 
level. Are you basing your recommendation for the sixty parts 
per billion with the one hour or the eight hour maximum ozone 
level, which is what the EPA uses?
    Dr. Rice. I am not basing my recommendation of either of 
those things--have to do with how the exposure interval is 
defined for setting the standard. I am basing my recommendation 
on the overall collected data, looking at ozone measured in 
different ways, looking at different exposure intervals, 
whether it is one day averages, one year averages, six hour 
exposures, as you discussed, or one hour exposure----
    Mr. Bridenstine. If it is based----
    Dr. Rice. --overall----
    Mr. Bridenstine. If it is based on the eight hour standard, 
as the EPA's standard, this means that your recommendation--if 
your X axis is a one hour standard, that means your 
recommendation would actually be below sixty parts per billion, 
is that correct?
    Dr. Rice. I am not sure I understand your question.
    Mr. Bridenstine. So the EPA uses an eight hour standard, 
you are using a one hour standard. If you expand it to an eight 
hour standard, you could actually go higher than sixty. But you 
are using a one hour standard, and saying sixty, which means 
your exposure would actually be, for an eight hour standard, 
even lower than the sixty parts per billion?
    Dr. Rice. So that particular study--first of all, as I 
said, I am not recommending a standard based on any particular 
average. That decision is made by others. I am talking about 
ozone exposures and health effects. And I think what you are 
referring to is that if you just pick one hour, you could have 
a spike in ozone. If you pick eight hours, that eight hour 
average could be lower, is that what you are saying, than what 
that one hour spike----
    Mr. Bridenstine. I saw--Dr. Lefohn, you smiled there. Did 
you have something to add?
    Dr. Lefohn. Maybe I shouldn't smile. If, in fact, the sity 
parts per billion was referring to that particular figure, and 
I am not sure that that was the case----
    Mr. Bridenstine. The one hour standard?
    Dr. Lefohn. The one hour daily max that was used in the 
time series, then the eight hour timeframe would be a lower 
concentration, which I think is what you are saying. If, in 
fact, Dr. Rice is saying there is a whole group of experiments 
that she is looking at, and she was giving the example of the 
Jarrett results, then I would question the use of that one 
particular study because it was a 1 hour daily max. But if she 
says there are lots of others, that is fine.
    Mr. Bridenstine. And I would just like to finish, Mr. 
Chairman, again, the State of Oklahoma is working very hard to 
reduce ozone, and we are doing it even though we are already in 
attainment. And I think that is an important point that 
everybody here needs to recognize.
    Chairman Smith. Thank you, Mr. Bridenstine. The gentleman 
from Texas, Mr. Weber, is recognized.
    Mr. Weber. Thank you, Mr. Chairman.
    Dr. Rice, if you had a magic wand, and you could just wave 
that rascal, no costs, no problems, what level would you like 
ozone to be at?
    Dr. Rice. That is a very good question, Congressman. The 
evidence around--I think what you are asking me is what about 
the health effects in ozone levels below 60, and how far down 
do we go? There is some evidence of health effects below a 
level of 60 parts per billion, so if I had that magic wand, if 
I could have everything I, you know, if there were--I would 
love to be able to just take ozone out of the picture 
altogether, but that is not possible. And there is no--the 
evidence surrounding health effects below a level of 60 parts 
per billion is not strong.
    Mr. Weber. Thank you for that. And, Mr. Chairman, I forgot 
that I have a health study I want submitted in the committee 
record. It is from the ``Journal of Allergy and Clinical 
Immunology'', into the record, if that is possible?
    Chairman Smith. Without objection.
    [The information appears in Appendix II]
    Mr. Weber. Thank you. So you think there are health effects 
lower than 60. How often do you think it ought--that level 
should be reviewed?
    Dr. Rice. So as I said, the evidence of health effects 
below a level of 60 parts per billion are not strong, so I 
don't feel comfortable stating that--definitely health effects 
below a level of 60 parts per billion, based on the evidence.
    Mr. Weber. Do you believe that science--that the data 
behind that should be made open to the public?
    Dr. Rice. That data is open to the public.
    Mr. Weber. Okay. You are a medical doctor is----
    Dr. Rice. Um-hum.
    Mr. Weber. --is that right? You understand lung disease. 
Your specialty is----
    Dr. Rice. Pulmonary and critical care medicine.
    Mr. Weber. Pulmonary and critical care medicine?
    Dr. Rice. Um-hum.
    Mr. Weber. Dr. Lefohn, you are a scientist, you said. You--
--
    Dr. Lefohn. I am, sir.
    Mr. Weber. You am, sir. You did research, and you named a 
whole bunch of people in your statement. Can you go back over 
those groups again who you did studies for?
    Mr. Weber. Yes. I designed, with Dr. Milan Hazucha, the 
Schlagele exposures that were used.
    Mr. Weber. Okay, but you named a whole bunch of groups, 
tribes and government----
    Dr. Lefohn. I am sorry.
    Mr. Weber. Yeah.
    Dr. Lefohn. That--those are the groups that I have done 
research----
    Mr. Weber. You have done research for? So you are a 
scientist--you are a research scientist. Okay. Can you name 
those groups very quickly? I am getting----
    Dr. Lefohn. You bet.
    Mr. Weber. --before I run low on time.
    Dr. Lefohn. Yes. Okay. I have done--I have assisted the 
American Lung Association with the State of Air report that, 
every year----
    Mr. Weber. Just the group.
    Dr. Lefohn. Okay. The Forest County Potawatomi Group in 
Wisconsin, the U.S. Forest Service, U.S. EPA, Congress, with 
the Office of Technology Assistance, the White House, dealing 
with the National Acid----
    Mr. Weber. Okay.
    Dr. Lefohn. --Precipation.
    Mr. Weber. That is plenty. Thank you for that. So you are a 
research scientist, you probably don't know many things about 
lungs, and--what did you call that, Doctor? What kind of 
diseases? Pulmonary----
    Dr. Rice. And critical care----
    Mr. Weber. Critical care. As a research scientist, Dr. 
Lefohn, you probably don't know much about that.
    Dr. Lefohn. I do.
    Mr. Weber. You do?
    Dr. Lefohn. I do.
    Mr. Weber. So you have been studying that too?
    Dr. Lefohn. I have.
    Mr. Weber. Good for you. You need to get a TV maybe to use 
in your spare time. Dr. Rice, you heard Dr. Lefohn's research 
stats, that naturally occurring ozone, as I understood the 
figures, is somewhere between 40, 50 percent background ozone 
in some of these areas, which makes up the numbers that we are 
looking at. Is that accurate, Dr. Lefohn?
    Dr. Lefohn. In some cases, it is 80 to 90 percent.
    Mr. Weber. Well, I wasn't going to go that high, but just 
to say as a general rule it is 40 to 50 percent. So you are 
aware of that, Dr. Rice? You are also aware, as the gentleman 
from Oklahoma said, that ozone is going down, but asthma is 
going up, and you don't know what causes asthma?
    Dr. Rice. You asked me a number of different questions, and 
I will try to address----
    Mr. Weber. Well, you are aware of his----
    Dr. Rice. So----
    Mr. Weber. --statistics, I take it?
    Dr. Rice. I am aware----
    Mr. Weber. Okay.
    Dr. Rice. --of his studies----
    Mr. Weber. And you----
    Dr. Rice. --and I am aware of other studies that have given 
other projections of the----
    Mr. Weber. Okay.
    Dr. Rice. --amount of background ozone. Let me finish, 
please, and try to answer your question.
    Mr. Weber. My only question was are you aware?
    Dr. Rice. All right.
    Mr. Weber. Thank you. So you know that ozone is down, 
asthma has not gone down. Would you agree that if there are 
more stringent controls put on business, that is going to drive 
the price up, Dr. Rice, of doing that business?
    Dr. Rice. I am a physician. That is not what I am here to 
talk about. I am here----
    Mr. Weber. Okay. But if they have to add technology to 
decrease ozone, it is going to cost something?
    Dr. Rice. Um-hum. You also mentioned that--I just wanted 
to----
    Mr. Weber. Is that----
    Dr. Rice. --clarify for the record that you said asthma is 
going up. Again, ozone has nothing to----
    Mr. Weber. No, I got that.
    Dr. Rice. My testimony has nothing to do with the asthma 
prevalence.
    Mr. Weber. But here is what I am driving to. So we don't 
know cause and effect. We do know there is a lot of natural 
occurring background ozone. It is going to drive the cost up. 
Stringent regulations are going to drive the cost up. And as 
Mr. Alford said in his remarks, and I happen to agree with him, 
it is going to cost billions of dollars, lost jobs. That is 
going to cost money to consumers who cannot afford health care, 
and so their level of health care is going to go down as a 
result of this, and we really don't know that it is going to 
have a positive effect on asthma.
    Dr. Rice. Congressman, I respectfully disagree that we 
don't know cause and effect. I think the evidence is very clear 
that ozone exacerbates asthma.
    Mr. Weber. I said cause, I didn't say--cigarette smoking 
does too. Are you on a kick to do away with cigarettes?
    Dr. Rice. That is a different issue.
    Mr. Weber. Okay. I am just blowing smoke, aren't I? Okay. I 
got it. Mr. Chairman----
    Dr. Rice. What do you think I advise my patients----
    Mr. Weber. Okay. I yield back.
    Chairman Smith. Thank you, Mr. Weber. The gentleman from 
Texas, Mr. Babin, is recognized.
    Mr. Babin. Thank you, Mr. Chairman. I believe that we have 
a duty to be responsible stewards of our environment, and I 
think that is reflected in the tremendous strides we have made 
with air quality over the last few decades. I can remember back 
in the '60s and '70s, as an avid outdoorsman, some of the 
pollutants that we have had in our water and our air, and we 
have made tremendous strides in that regard. However, there is 
no concrete evidence to support a lower standard for ozone 
before we have even complied with the last standard. If 
anything more research needs to be done. Based on this, it 
makes no sense that the Environmental Protection Agency is 
proposing one of the most costly regulations in U.S. history on 
a very limited set of studies. The EPA should not be rushing to 
issue this new standard.
    Now I want to draw attention to a slide, and talk a little 
bit about my district, and how this is going to impact us. As 
you see up here, I have Texas 36 District, and we have the 
notoriety, or the fortune--the good fortune to--I should say to 
have more chemical and refining plants in our District 36 than 
any other district in the United States. We have the second 
largest manufacturing industry in the state, the chemical 
industry, $164.6 billion. We directly employ 9,393 individuals 
in District 36 alone. We pay out $934 million in wages in the 
district. We have an average wage of $99,386 in the state. This 
is 94 percent higher than the state average in Texas. We 
generate $94 million in federal taxes. We invest $4.982 billion 
to build and update equipment and facilities in the State of 
Texas. 47 billion in industry products are shipped to global 
customers from the State of Texas. This generates an additional 
1,224 jobs in the plastics and rubber products industry.
    Is it worth, and I am asking all of you panelists, and I 
appreciate all of you being here, whichever side of this issue 
you are on, is this worth putting all of this at risk, just in 
District 36 alone, not counting the rest of the nation, all of 
these jobs, all of these industries, and the overall economy of 
our nation, is it worth it? I would just like to say--to ask 
each one of you panelists that question.
    Mr. Alford. No, it isn't, Congressman. Senator Barbra 
Mikulski told us in a meeting about NAAQS back around 2000, 
2001, she said, I am looking at this NAAQS situation four ways, 
is it sound science, the economic impact, which you just 
explained up there, is it measurable and achievable, and for 
national security? And I think this move to lower NAAQS further 
flunks all four of these categories.
    Mr. Babin. I appreciate that answer. We produce about 63 
percent of all strategic aviation fuels in this area alone.
    Mr. Alford. Looks like a nice place to live.
    Mr. Babin. It is. Lots of jobs. Mr. Keating?
    Mr. Keating. No, it is not worth it. It makes no sense, 
when you look at--your district is a prime example of the good 
things that are going on in an otherwise very tough economy. 
Why would we want to put that in jeopardy? When you look at, 
again, the increased cost of regulations, the negatives for 
growth, for productivity, for investment. Study after study 
shows this. You talk about exports. That is a wonderful thing. 
Wouldn't we want to boost our exports, rather than exporting 
more jobs and businesses? So no, it is not worth it.
    Mr. Babin. Doctor?
    Dr. Rice. Thank you, Congressman. First, I would argue that 
the question of whether it is worth it shouldn't be factoring 
into the decision of what a safe standard is for the American 
public. And the evidence has shown that the current levels are 
not protective of public health, and that a level of 60, or in 
that range, is more protective of public health. So, setting 
the implementation details aside, the second point I would like 
to make is that when we look at history, we look at the Clean 
Air Act, and a number of people in this room have commented on 
the success of the Clean Air Act over the last 10 to 15 years, 
and there have been a number of economic analyses of the 
benefits of the Clean Air Act, and those have concluded that 
the Clean Air Act may be one of the best financial decisions 
our government has ever made.
    Mr. Babin. Yes, sir?
    Dr. Lefohn. Yes. Let me be clear, our results for 
background ozone that our international team published in late 
2013 agrees with EPA's policy assessment numbers that it 
published in 2014. There is no disagreement. Background is very 
important. Those dots I showed in that figure were from EPA's 
own analysis. The bottom line is as follows. We have made great 
advances in reducing ozone. The problem we are now getting into 
is that background itself is beginning to rear its head. We are 
going lower and lower and lower, and we are at that level--and 
let me explain.
    What EPA did was they ran a model, and they ran their 
model--and this is, let us say, the concentrations of ozone. 
Low end, high end. As you reduce emissions, you would assume 
that the high end goes down toward the low end, and the low end 
stays constant. What, in fact, happened, and impacted in a 
dramatic way the epidemiological risk assessment, was that the 
high end came down, and the low end came up, and they met in 
the middle. In the middle was where most of the risk was 
associated with, which is predominated by background ozone.
    Mr. Babin. Thank you. Mr. Heaston?
    Mr. Heaston. I would say that the new NAAQS is not 
necessary because the government needs an opportunity to just 
do a good job on what we have got in front of us, and let us 
just work on doing that from a common sense approach. Let us 
try to meet the 2008 standard, and leave this other one for 
after, because what I see is negligible gain to the actual 
health benefit when maybe a job might be a better control 
measure than anything I can put in place to try to meet an 
ambient standard.
    Mr. Babin. Well stated. Thank you all very much, I 
appreciate it.
    Chairman Smith. Thank you, Dr. Babin.
    Mr. Babin. Thank you, Mr. Chairman.
    Mr. Babin. And, Dr. Lefohn, let us just say that is the 
first time I have ever seen a Slinky used for that purpose, but 
it is good.
    Chairman Smith. I am glad people recognized it.
    Chairman Smith. The gentleman from Michigan, Mr. Moolenaar, 
is recognized for his questions.
    Mr. Moolenaar. Thank you, Mr. Chairman, and I would like to 
ask unanimous consent to submit for the record a letter from 
Michigan Governor Rick Snyder, as well as a technical submittal 
from Dan Wyant, the Director of the Michigan Department of 
Environmental Quality, that was sent to President Obama on 
February 26.
    Chairman Smith. Without objection.
    [The information appears in Appendix II]
    Mr. Moolenaar. Thank you, Mr. Chairman. In this letter, and 
I guess, Mr. Alford, I would like to address this to you, if 
that is okay, Governor Snyder states that more stringent 
standards could thwart growth and business investment. And, 
obviously, we want to be good stewards of our environment in 
Michigan, but the National Association of Manufacturers 
estimates the proposal before us would cost approximately 
20,000 jobs a year. And I just wanted to get your perspective 
on this effect, possibly on Michigan, and what these more 
stringent ozone standards--how that might encourage or 
discourage economic growth? Because some people are arguing 
that that would actually encourage economic growth.
    Mr. Alford. I lived in Detroit five years back in the late 
'70s, early '80s, met my wife in Detroit. It would have a 
profound effect, once again--and Detroit, you keep waiting for 
it to hit bottom, well, there is going to be a new bottom 
caused by that. There is so much opportunity to bring--people 
have the skills in Michigan. There is so much opportunity to 
bring new business, because the people already there are 
prepared.
    Mr. Moolenaar. Sure.
    Mr. Alford. But--this way, with these standards, would be a 
shame.
    Mr. Moolenaar. Okay. Thank you. Mr. Keating?
    Mr. Keating. Yeah, I would just like to note real quick 
that we do an index each year where we rank the states 
according to their policy climates, and Michigan has improved 
rather dramatically, and kudos to the state, but this is an 
instance where you would have the federal government working 
against what you have been doing on the state level to improve 
the environment, so it clearly would be a negative, I would 
say.
    Mr. Moolenaar. Okay. Thank you. And, Mr. Heaston, I would 
like to ask your thoughts on this. The background ozone 
levels--our experts in our state have noted that lowering the 
standard below the 75 parts per billion would make this 
compliance very difficult, almost impossible, for a state like 
Michigan, just due to background ozone levels. Can you comment 
on either in particular with Michigan, or with other states who 
have a strong manufacturing base what this might mean, in terms 
of how they could comply?
    Mr. Heaston. Well, I think that mainly the areas that may 
come under it as a result of the new NAAQS, the new non-
attainment areas, you are going to find that a lot of them are 
going to be transport impacted from maybe some other parts, and 
also from the non-anthropogenic emissions. So I think that we 
are going to have to determine what is a number that you can 
live with, if ambience ozone levels are higher? And I think, 
like, in our district, the 60 ppb is probably very close. I 
have no way to come into attainment without South Coast making 
dramatic and draconian type cuts in the L.A. basin. And so I 
mean, when you are a rural area, or where the population 
density is down, and you have nothing to control, I don't know 
how you get there.
    Mr. Moolenaar. Thank you. Anyone else like to comment on 
that? I guess the main question I am asking here is, if we 
would agree that it is--the 75 parts per billion, it hasn't 
even truly gone into effect, and, you know, measurable ways of 
examining how that is affecting states, I guess the question 
is, you know, what are the consequences for setting a standard 
that isn't really a real world achievable standard for states 
who are trying to comply with this across the board?
    Dr. Rice. Congressman, I would like to discuss that----
    Mr. Moolenaar. Sure.
    Dr. Rice. --issue. So, back in 2006, when the Bush 
Administration asked the Clean Air Scientific Advisory 
Committee to review the evidence, and to develop a 
recommendation for what an appropriate standard would be, the 
committee recommended a range of 60 to 70 parts per billion 
then, and that was almost ten years ago. So, yes, we are 
dealing with the implementation of a standard that was 
established then, but the evidence that was available even at 
that time was in favor of--was consistent with health effects 
in the 60 to 75 parts per billion range.
    So I guess the point I am trying to make is there is 
nothing magic about the 75 parts per billion standard. Even 
when it was established, the scientific community did not feel 
that it adequately protect public health. And in terms of 
looking at health effects, and analyzing whether this standard 
is appropriate, one of the advantages of the research that I 
do, looking at what we call observational data, so things that 
have happened, so looking at historical air pollution data and 
health outcomes, we have a breadth of ozone concentrations even 
within just the city of Boston, where I do most of my research, 
but across the country we have a wide range, and day to day 
ranges. So that allows us to look at health effects well below 
the 75 parts per billion. And we already have plenty of 
evidence to support that the health effects are serious----
    Mr. Moolenaar. Now, I guess----
    Dr. Rice. --that range.
    Mr. Moolenaar. Just, Mr. Chairman, if I may follow up?
    Chairman Smith. Yes, Mr. Moolenaar.
    Mr. Moolenaar. When you use terms like the scientific 
community, or when you say plenty of evidence, my sense is 
there are probably scientists, in fact even some here with us 
today, that wouldn't agree with your conclusions, and would say 
that the evidence is inconclusive. Would you acknowledge that?
    Dr. Rice. Certainly.
    Mr. Moolenaar. Okay. So----
    Dr. Rice. So when I am talking about the scientific 
community, I can give you some examples----
    Mr. Moolenaar. Right. Well, no, I know, but I bet there are 
examples in the scientific community that would not support 
your premise, and--but let me just--because I know, Mr. 
Chairman, you are trying to conduct this hearing, and get 
everybody involved, I appreciate all of you appearing. I am 
very concerned if we change the standard at this point, because 
I don't believe the scientific community is unanimous on this, 
and I do think that the consequences of putting states in non-
attainment, and the chilling effect on the economy is not 
appropriate at this time.
    Chairman Smith. Thank you, Mr. Moolenaar. The gentleman 
from California, Dr. Bera, is recognized.
    Mr. Bera. Right. Thank you, Chairman, and thank you, 
Ranking Member, for having this hearing. You know, as a fellow 
physician, you know, it is incredibly important that we take 
standards to address respiratory effects, and address asthma 
rates. I am empathetic to concerns about increased economic 
costs, and, you know, impact on jobs, but, you know, Dr. Rice, 
I think you would probably concur that, you know, the 
detrimental cost to asthma, the detrimental cost to, you know, 
increased respiratory and pulmonary disease also have a huge 
economic impact. And I don't know if you can quantify that, 
but, again, we know the lifelong impact of, you know, these 
increased asthma rates and so forth.
    Dr. Rice. Thank you for your question, Dr. Bera. 
Absolutely. Many of the cost analyses that have been discussed 
so far today have not taken the human health costs of 
implementation, or of not implementing a stricter standard, 
into account. And those that have examined the health effects 
have found enormous health benefits associated with lower ozone 
standards, and those are in the form of savings from the use of 
medications to control asthma or COPD, lost work days that are 
avoided when people can go to work because they are feeling 
better, because the air quality is better. Kids can go to 
school. The cost of hospitalization for respiratory disease. 
And then there is, of course, the difficult to quantify costs 
of human suffering when people die as a consequence of higher 
ozone levels. Those are very important.
    Mr. Bera. So if we are doing a fair economic analysis, we 
also should clearly take a look at the prevention by impacting 
ozone standards, impacting asthma rates, impacting community 
health, and that would give us a much greater economic picture?
    Dr. Rice. Absolutely. I agree with that. Thank you.
    Mr. Bera. I apologize if you have already touched on some 
of these cases, but, by upgrading our ozone standards, can you 
quantify the health impact, in terms of reduction in asthma 
rates, or----
    Dr. Rice. I can give some examples. I could give----
    Mr. Bera. Great.
    Dr. Rice. --the example of--so each study uses a different 
methodology, and they are going to arrive at different numbers, 
but one study, for example, by Berman and colleagues at Johns 
Hopkins looked retrospectively at asthma, and other health 
effects under different ozone standards. So, just to give an 
example, this analysis looked at how many lives would be saved 
if we fully adhered to the current standard of 75 parts per 
billion. And they estimated that approximately 2,000 would be 
saved just from the respiratory mortality component at 75 parts 
per billion, if we actually were there. And then if we went 
down to 70 parts per billion, almost 4,000 lives would be 
saved. And that increases to 7,000 at 60 parts per billion, so 
triple the benefit. Acute respiratory symptoms, and that 
includes things like asthma and COPD exacerbations, about three 
million reduced exacerbations if we implemented the 75 parts 
per billion, increasing to almost--to more than three times 
that, 11 million exacerbations each year. This is going back to 
2005.
    The EPA used a different approach, looking forward, at 
2025, and estimated at 65 parts per billion, 4,300 premature 
deaths, and almost a million childhood asthma attacks would be 
avoided. Just some examples.
    Mr. Bera. So, again, this is incredibly important, right? I 
mean, you are talking about children's lives, you are talking 
about huge economic impacts when you are talking about millions 
of potential exacerbations that are now mitigated by doing 
something that is actually a good thing to do. If we look at 
the current science, you know, the current standards don't 
reflect the current science, is that correct? Is that an 
accurate statement?
    Dr. Rice. I would agree with that. That was the point that 
I made earlier as well, that even when the current standard was 
set, the Clean Air Scientific Advisory Committee had 
recommended a lower standard.
    Mr. Bera. Okay. So, again, you know, part of our job as 
scientists, part of our job as physicians, is to provide the 
best science. And then what we should be doing, as Members of 
Congress, is taking that science, taking the recommendations of 
the experts, and acting on that. So, again, thank you for your 
testimony, and thank you for your time.
    Dr. Rice. Thank you.
    Chairman Smith. Thank you, Mr. Bera. Are you finished? The 
gentleman from Alabama, Mr. Palmer, is recognized.
    Mr. Palmer. Mr. Chairman, I would like to introduce into 
the record a letter from the Governor of Alabama, the Honorable 
Robert Bentley, addressed to the Honorable Gina McCarthy of the 
EPA.
    Chairman Smith. Without objection.
    [The information appears in Appendix II]
    Mr. Palmer. Thank you.
    Mr. Heaston, reductions in ozone levels can be achieved by 
a variety of methods, including control technologies and 
control measures. Ozone control strategies generally target 
nitrogen oxides and volatile organic compounds, which are the 
primary contributors to ozone formation at ground levels. 
Unfortunately, the EPA has not been able to identify how the 
proposed standards will be met. Despite intensive review of 
available control technologies, the EPA is forced to heavily 
rely on controls that could not identify or predict literally 
unknown controls.
    If the EPA can't even point to controls capable of almost 
half the emissions reductions needed in the east, or all of the 
reductions required in California to meet these stringent 
proposed standards, this sounds like a shoot first, ask 
questions later rulemaking. Should we be imposing this much 
burden on the American people when the EPA doesn't even know 
how this rule can be accomplished?
    Mr. Heaston. Thank you. The broader question, I think, is 
the use of the black box, it is just a holding mechanism, so 
that you can go through the process and meet the requirements 
of the Clean Air Act. And they have to approve them, without 
any backup to it. And, I mean, I personally am glad it is there 
as a tool, but the reality is that the technology may not be 
developed, it may not be cost-effective, and it is--you are 
looking into the future with promises of some sort of a deposit 
that you may not be able to withdraw later on if they are not 
there. And that is one of the concerns I have. You are just 
going to make the black box a bigger part of your attainment 
strategy, and that is not the way we should be going.
    Mr. Palmer. Well, I worked--prior to being a Member of 
Congress, I had a real job. I had several real jobs, one of 
which was in engineering and environmental systems. And one of 
the estimates here is that EPA's cost benefit analysis on the 
ozone proposal caps the cost of unknown controls, again, 
controls that don't exist, at $15,000. And having worked in 
environmental systems, designing and building pollution 
controls that our company did, I can't think of a single thing 
that we could do for $15,000. So is your experience in 
implementing unknown controls, does that sound reasonable?
    Mr. Heaston. No, it does not.
    Mr. Palmer. Thank you. I also want to address something, 
Dr. Rice, that you brought up about the need to do this to 
improve health. Would you agree that an individual's health is 
directly impacted by their economic or income status?
    Dr. Rice. Absolutely, yeah, I would agree with that.
    Mr. Palmer. So lost jobs would impact their health?
    Dr. Rice. It certainly could----
    Mr. Palmer. Thank you.
    Dr. Rice. --affect someone's health.
    Mr. Palmer. I think it would too, particularly when you 
look at the preponderance of data on who are likely to have 
asthma. It is males living below the poverty line, unemployed.
    I want to go back to this other issue, Mr. Heaston, with 
you. I also ran a think tank, and every four years we put out a 
report on environmental indicators for Alabama and the United 
States, and Alabama has done quite well in improving air 
quality, particularly in Birmingham, where I live, which was 
known as the Pittsburgh of the South. We were a steelmaking 
company. In the '60s you could see the air you were breathing. 
We have made great progress, despite the fact that the EPA 
keeps changing the standards. We still meet them. This new 
standard, thought, makes very little sense to me, particularly 
since the EPA admits the technology doesn't exist.
    Do you have any knowledge of any unknown controls in use 
right now, in practice, or are they things like--are these 
unknown controls more in the line of shutting down a power 
plant, or mandatory electric cars? Is that the black box that 
we are talking about?
    Mr. Heaston. I would never, ever admit to that as control 
strategy, that I am going to try to shut down some industrial 
source--not in my district. Now, it might be in other districts 
that have no choice, but it certainly wouldn't be a strategy 
that I would employ. My job is to try to figure out how to make 
the economics and the balancing of human health work together, 
because they are not exclusive to each other. You have to have 
them both in order----
    Mr. Palmer. Well----
    Mr. Heaston. --find a way to pay.
    Mr. Palmer. --even with that, it wouldn't accomplish the 
objective because so much of the ground level ozone occurs 
naturally----
    Mr. Heaston. Right.
    Mr. Palmer. --particularly in the South, where you have got 
a number of warm, windless days, and a high density of forest. 
So, with that, Mr. Chairman, thank you.
    Chairman Smith. Thank you, Mr. Palmer. And the gentleman 
from Ohio, Mr. Johnson, is recognized.
    Mr. Johnson. Thank you, Mr. Chairman. I found it 
interesting a little earlier, when Dr. Rice made an analogy 
about the EPA's need to set standards for ozone, comparing that 
to her requirement, as a physician, in rendering a diagnosis, 
that your diagnosis does not address the cost. That I actually 
would agree with, from a health care perspective, but I submit 
that most physicians would certainly agree that the course of 
treatment for whatever that diagnosis would be would certainly 
be a cost consideration, because a physician is not going to be 
willing to render that treatment for free, I don't believe.
    And I think what we are looking at here is the standards 
being set by the EPA, those are a course of treatment. They are 
not the diagnosis. I look at the staggering statistics coming 
out of the American Petroleum Institute that says that these 
new ozone rules--and we are talking about just my state, first 
of all. 204.3 billion gross state product loss from 2017 to 
2040, 218,415 lost jobs. Across America we are talking about 
3.4 trillion in GDP per year from 2017 to--I am sorry, during 
that time period, and 2.9 million fewer jobs, or job 
equivalents, per year on the average through 2040. The economic 
implications of this are staggering. They are profound, and I 
think we gloss over those way too quickly.
    Mr. Alford, the EPA administrator, Gina McCarthy, wrote an 
op-ed saying that the agency's air standards attract new 
business, new investment, and new jobs. Is that what businesses 
have found?
    Mr. Alford. Not at all, sir. The regulations prevent jobs, 
prevent business growth. Onerous regulations, regulations that 
may--have no economic sense whatsoever are crippling.
    Mr. Johnson. Yeah.
    Mr. Alford. And let me say, I have a deep appreciation of 
the improvement in our air quality. You know, I played rough, 
tough football in Los Angeles back in the '60s, where it was 
just terrible. Playing in 102 degrees, and someone is trying to 
take your head off. So I have a deep appreciation for the 
progress we have made. I think maybe we may be getting it a 
little too overboard.
    Mr. Johnson. Okay. Mr. Keating, do you have a response to 
that?
    Mr. Keating. Yeah. I just--I agree with Mr. Alford, and I 
think it is important to note, for example, the NERA study. 
That really is the most, I think, comprehensive look at this 
at--so far. Includes any kind of benefits, if you will, 
increased jobs that come from the environmental side of things. 
So when you--when they talk about the total loss of jobs, let 
me look real quick, in terms of 1.4 million jobs per year, 
those factor--that includes the benefit, so that is the net 
loss there.
    Mr. Johnson. Okay.
    Dr. Rice. Mr. Johnson----
    Mr. Johnson. Mr. Alford--ma'am, I have got some other 
questions here, thank you. Mr. Alford, the whole state of Ohio, 
under these new ozone rules, would be found in non-attainment. 
Some of the counties would be unmonitored counties that are 
anticipated to violate a 60 ppb standard based on spatial 
interpolation. So could these stringent ozone standards hurt 
economic development in areas that are in attainment?
    Mr. Alford. Yes, sir. Again, the example of Baton Rouge, 
which had just got in attainment, but people fear that they are 
going to be out of attainment if these new rules come in. So 
prospective businesses from abroad are looking at Baton Rouge, 
I am sure they would be looking at Columbus or Cincinnati, but 
if there is a chance that you are going to be out of 
attainment, all bets are off.
    Mr. Johnson. But in areas that are in attainment--we 
conduct commerce all over this country. Goods are produced in 
one place, they are shipped across the country as raw materials 
for other places. The point I am making is that the areas that 
are found not in attainment----
    Mr. Alford. Um-hum.
    Mr. Johnson. --they are not the only ones that are going to 
suffer. The whole country is going to suffer under this.
    Mr. Chairman, I have exceeded my time, and I will yield 
back.
    Chairman Smith. Thank you, Mr. Johnson. And we will go to 
the gentleman from Washington State, Mr. Newhouse, and is 
recognized for his questions.
    Mr. Newhouse. Thank you very much, Mr. Chairman. First of 
all, let me say I appreciate all of your participation this 
morning in this conversation. It is very important. I am from 
the State of Washington, and I just--something you said, Mr. 
Heaston, piqued my interest.
    Washington, like other areas of the country, is exposed to 
what is a good deal of ozone and other particulate matter from 
other countries, foreign countries. Now, EPA has the authority 
to address this issue in its attainment designations, but, if 
you could, can you describe how EPA accounts for international 
border pollution? I am not saying L.A. is another country, but, 
given that Washington, like other areas of the country, we 
can't exercise control over foreign sources. And kind of as a 
follow-up to that, does EPA, as far as you know, provide any 
implementation flexibility so it doesn't punish states that 
violate standards due to that outside air--that they have no 
control?
    Mr. Heaston. Currently there is not a whole lot that can be 
done about--especially the stuff that comes over from overseas. 
I think more dramatically, if you look at the Mexico-U.S. 
border, like, for instance, down in Imperial County, down by 
the Salton Sea, the impact there is that they can't sometimes 
put in a business without getting offsets, and so they have 
gone to drastic ways--not through anything EPA did to help 
them, but through their own ingenuity, went into Mexico, put a 
gas pipeline so they could get gas into the homes, so we could 
get them to quit burning the wood and other debris that they 
use to heat their homes, and then tried to find a way to take 
credit for those kinds of reductions.
    I mean, that is the kind of things that we have to go to, 
even in the States of California, just to get a project sited. 
And, to me, that--it points to a bigger issue when you go to 
the offshore stuff, because we don't have any way to control 
that. And if businesses close here--for instance, if the cement 
industry was to close, and I think they have made the argument, 
many times, that they will just produce the cement over in 
Asia, and you still get the emissions back--coming back to the 
other way. So it is kind of a catch-22 for them, but there is a 
very limited ability to deal with those kind of emissions.
    Mr. Newhouse. Thank you, thank you. Mr. Alford, the EPA's 
proposed standards will make it, I think, I have heard today, 
harder to get necessary permits to manufacture goods, build 
critical infrastructure like roads, and--especially in my 
state, as well as others, increase cost of energy on all 
businesses and households. In fact, the study that has been 
cited a couple times looks to show that Washington State would 
put costs about $16 billion by the year 2040, even though it is 
projected all of our counties will be in attainment.
    So I guess my question is what happens to permitting for 
new and expanding businesses throughout the country when these 
standards are set to close to background levels, and how will 
the proposed standards hurt economic development in states that 
are projected to be in attainment? I mean--any idea what those 
economic impacts might be?
    Mr. Alford. It would be negative, I would believe. You 
know, permitting is a catchy thing that you can't really get a 
hold of. Some people will say that I am going to build this 
edifice, but yet you can't get the permit. You don't see that 
until you go and apply for the permit. So I think there would 
be a lot of confusion, a lot of--lack of aggressiveness for 
investors, or from companies who are willing to grow. They may 
take that business elsewhere, instead of taking it to 
Washington, or some other place because of the uncertainty.
    Mr. Newhouse. Okay.
    Dr. Rice. Mr. Newhouse----
    Mr. Newhouse. Dr. Rice, yes?
    Dr. Rice. I would like to add to the discussion, as there 
has been a lot of discussion this morning about the costs of 
the new rule. And I would like to--and there was that analogy 
that I brought up about making a diagnosis of pneumonia. And I 
want to set it clear for the record that, at this stage, when 
the EPA is setting the standard, costs are not supposed to 
factor into the decision of what a safe standard should be for 
public health. That should be based on the scientific evidence 
of health effects, and not the cost of implementation.
    And one of the witnesses, Mr. Alford, had commented that he 
felt that setting the standard in the range of 60 to 70 would 
be called--would be going overboard. And I would like to raise 
a question of what--what part--which asthma admission is going 
overboard? Which child who ends up in the ICU with a 
respiratory infection that was triggered by a high ozone event 
is overboard? And I would like you to ask the parents of those 
children whether they would agree that that is going overboard.
    Mr. Alford. Is that a question to me?
    Mr. Newhouse. Well, I have gone over my time, Mr. Chairman. 
Thank you very much.
    Chairman Smith. Okay. Mr. Alford, would you want to respond 
to that question?
    Mr. Alford. Well, I don't accept--I refute a lot of the 
things that have been said here today. You have got ozone going 
down, you have got asthma going up. Something else is causing 
asthma. I don't--maybe it is just my stupid common sense 
thinking that.
    Chairman Smith. Okay.
    Mr. Alford. But the--there--I am looking, I am trying to 
find a correlation. I am spending money trying to find a 
correlation on asthma as it relates to ozone, and so far, sir, 
and in a month I can go public with this thing, I don't see the 
correlation.
    Mr. Newhouse. Thank you, Mr. Alford. Thank you, Mr. 
Newhouse. We will go to the gentleman from Kentucky, Mr. 
Massie, for his questions.
    Mr. Massie. Thank you, Mr. Chairman. This is not an issue 
that should be partisan. I mean, we all want clean air, and we 
all want a vibrant economy. And as evidence of the fact this 
is--this shouldn't be a partisan issue, and is not a partisan 
issue in Kentucky, I would like to submit for the record a 
letter from our Democrat governor to the President of the 
United States, and copied also the Administrator of the EPA.
    Chairman Smith. Without objection.
    Mr. Massie. And I want to read from this letter from our 
Democrat governor to the President. ``I am writing concerning 
the anticipated EPA's proposed rule relating to ground level 
ozone standard. I appreciate the great challenge that the EPA 
faces in setting health-based standards. As you are aware, 
protecting the health of Kentuckians is of critical importance 
to me. However, I must share with you the concern I have that 
the new ozone standard could create a hardship for many of our 
communities.'' And I will skip to this section, ``This is of 
critical importance because if a lower standard is selected, 
counties in Kentucky that have never before experienced the 
ramifications of a non-attainment designation may be forced 
into that position.''
    He goes on to say, ``My advisors recommend the ozone 
standard should remain unchanged for the time being. There are 
many environmental rules driving up costs in Kentucky that will 
negatively impact the economy. A new ozone standard does not 
have to contribute to these costs. Kentucky is a manufacturing 
state. For example, Kentuckians produce many of the vehicles, 
and much of the aluminum and steel manufactured in the U.S., 
and our manufacturers rely on low cost electricity to produce 
these products. I therefore ask you to retain the current ozone 
standard, which will continue to protect the health of our 
citizens without burdening our communities with costly non-
attainment compliance programs. The growth of our economy is 
dependent on it.''
    You know, in Kentucky we found this interesting 
correlation, I am sure you are aware of it, Dr. Rice, that 
poverty corresponds--is associated with a lot of health 
problems, such as diabetes and other things. Do you agree with 
that?
    Dr. Rice. I do.
    Mr. Massie. So that is really what we are, you know, our 
number one health problem in Kentucky--in a lot of regions of 
Kentucky turns out to be the economy.
    Mr. Heaston, can you tell me what the ramifications of non-
attainment designation might be for some of our more rural 
areas that are trying to attract industry?
    Mr. Heaston. Well, I think the effects are that you are 
going to have more bureaucracy. You will have controls you will 
have to put into a structure. If it currently didn't have an 
air quality program, you are going to have to start from 
scratch, and start instituting controls, which immediately sets 
into play certain limits on which new sources can be sited, and 
then the existing sources are going to have to comply through 
prescriptive controls that are for that particular designation 
that you have.
    Mr. Massie. So I notice that in many days of the year that 
Southern California basin is in non-attainment of the current 
standard. What would be the economic impacts of saying that 
tomorrow they have to attain 75 parts per billion?
    Mr. Heaston. Well, I mean, I can't speak for the South 
Coast Air Quality District, I can only speak for my own 
district, but what is going to end up happening is I will bump 
up. If I can't meet the standard by the assigned date, then I 
have to go into what they call a bump up provision, and that 
means I go into a more stricter controlled environment. So 
those sources that are already in my district would then have 
to suffer even lower limits when they do changes, or 
modifications, or if a new company comes in. So those aren't 
very pleasant things to have happen to you if you can't attain. 
There are some punitive effects. There is Section 185. Section 
185 has the unpleasant presumption presuming that the 
stationary sources was the reason you didn't attain.
    And when you didn't attain, it levies fines against the 
businesses that really weren't part of what was exacerbating 
the problem, or caused you not to attain. Because if they did 
the cuts that were prescribed into the Clean Air Act, they have 
done their part. But if we were still in non-attainment, then 
the burden of the fees and the penalty goes on them, and not 
the public.
    Mr. Massie. So, Mr. Chairman, just to summarize, I want to 
say it should not be a partisan issue. We all want clean air. 
We all want healthy constituents. We all want a vibrant 
economy, but there is clearly a balance to strike here, and I 
hope we listen to our governors, Republican and Democrat, and I 
hope the EPA will do the same. Thank you, and I yield back.
    Chairman Smith. Thank you, Mr. Massie. The gentleman from 
Arkansas, Mr. Westerman, is recognized.
    Mr. Westerman. Thank you, Mr. Chairman, and I would request 
unanimous consent to submit a study from the Institute for 
Energy Research, and a letter from the American Forest and 
Paper Association.
    Chairman Smith. Okay. Without objection.
    [The information appears in Appendix II]
    Mr. Westerman. So, as already discussed, there is evidence 
that suggests that the basis for the EPA's ozone rule, which 
attempts to link asthma to ozone as an outdoor air pollutant, 
is not necessarily on a good foundation. In fact, according to 
a study published in the ``Journal of Allergy and Clinical 
Immunology'', indoor air pollution that is correlated to 
poverty creates a higher risk for asthma than outdoor air 
pollution.
    We all know that forests and forest products are very 
environmentally friendly, and are critical for clean air. We 
understand the importance of trees in the carbon cycle. We know 
that trees, through photosynthesis, pull down carbon. When 
those trees are processed into two by four's, and plywood, and 
oriented strand board, and put into houses, or put into 
furniture, that carbon is sequestered where those trees were 
cut down. New trees grow up. When they are younger, they grow 
faster, they pull more carbon out of the atmosphere, and they 
are very important to clean air. The wood we see in this room 
is sequestering carbon, and it has been for some time.
    All while sequestering carbon and cleaning the air, the 
forest products industry employs nearly 900,000 men and women 
in 47 states, and is among the top ten manufacturing sector 
employs. This generates wealth, which lifts people out of 
poverty, which is good for their quality of life, including 
their health. Through existing rules, such as boiler maximum 
available control technologies, the forest products and paper 
industries are already improving air quality. VOC emissions are 
going down, and NOCs are down by over 25 percent from 2000 to 
2012.
    The ozone rule will drive up costs in the forestry and 
forest products industry, which will result in closed 
facilities, which will mean less jobs, less carbon 
sequestration, more poverty, and more asthma. So, Ms. Rice, I 
have a question for you. Do EPA's health effects include the 
negative health effects of employment cost?
    Dr. Rice. Are you asking me whether the effects on 
employment were incorporated in the EPA cost analysis?
    Mr. Westerman. Right.
    Dr. Rice. I don't believe that the employment related to 
the regulation was taken into account.
    Mr. Westerman. Even though there are studies that show 
that----
    Dr. Rice. Um-hum.
    Mr. Westerman. --poverty is related to indoor air 
pollution, which is correlated with asthma? You have totally 
disregarded the effect of employment, and jobs, and poverty on 
your cost analysis?
    Dr. Rice. So I haven't done any cost analysis, just to be 
clear. I am a physician who does----
    Mr. Westerman. Well, EPA.
    Dr. Rice. --research on air quality. And the standard, as I 
have said many times, should be set based on a level that is 
considered to protect public health, with an adequate margin of 
safety. The evidence that ozone makes asthma worse is very well 
established. There are hundreds and hundreds of studies to show 
that ozone makes asthma worse.
    What you are referring to is a very well designed study 
examining asthma prevalence, so how common asthma is in 
different parts of the country, and found evidence that poverty 
is associated with asthma prevalence. That is--that study did 
not look at ozone.
    Mr. Westerman. What about in the case of the forest 
products industry, where you have a very green material that is 
good for the environment, yet these standards are going to hurt 
the industry, which will cost jobs, which will close down 
facilities, which means less trees will be utilized, which will 
mean less carbons being sequestered in the air, is becoming 
less clean?
    Dr. Rice. We have been talking a lot about costs today, and 
I do agree with you that costs are important, and costs present 
challenges, and costs should be part of the implementation 
process, and the decision process on how to implement the 
standard. But I think the standard should be established based 
on the health consequences----
    Mr. Westerman. Well, if we take cost out of the equation, 
and just use the science of air quality, these regulations will 
negatively impact air quality because they will remove 
operations that ultimately add to the cleanness of the air.
    Dr. Rice. Though I am a physician, and not an expert on the 
forest industry, I respectfully disagree with the prediction 
that these--that setting a lower standard will worsen air 
quality.
    Mr. Westerman. I am an engineer and a forester, and I 
disagree with you, and I can tell you that raising these 
standards will hurt this sector of the economy, which will, in 
essence, hurt the air quality overall. Thank you, Mr. Chairman.
    Chairman Smith. The gentleman's time has expired, and thank 
you, Mr. Westerman. The Ranking Member, Ms. Johnson, is 
recognized.
    Ms. Johnson. Thank you very much, Mr. Chairman. I have a 
letter from Dr. Corinne Keet, the lead author of the study that 
was mentioned by my colleague. This letter clarifies the 
results of the study, and the misinterpretation by some that 
ozone--is not important for asthma. Dr. Keet outlines how the 
conclusions drawn in recent articles on her study are false. 
She states in the letter that her study found that poverty and 
race were major risk factors for asthma prevalence, and that 
living in urban areas was not a major risk factor, but that her 
study does not suggest that air pollution and ozone are not 
important for asthma.
    She goes on to state that a link between ozone levels and 
respiratory health outcomes is supported by many studies that 
have been used--use a variety of methods. And I ask unanimous 
consent that this letter be included in the record.
    Chairman Smith. Without objection, the letter will be made 
a part of the record.
    [The information appears in Appendix II]
    Chairman Smith. And the gentleman from Oklahoma, Mr. Lucas, 
is recognized.
    Mr. Lucas. Mr. Chairman, I ask by unanimous consent that a 
letter from Dale Moore, Executive Policy Director of the 
American Farm Bureau Federation, to Gina McCarthy, 
Administrator of the EPA, be submitted to the record with the 
insights that it provides on this very important subject 
matter.
    Chairman Smith. Without objection, so ordered.
    [The information appears in Appendix II]
    Chairman Smith. We have no further Members to ask further 
questions. And I just want to thank the panel today. You all 
have just given excellent testimony. We appreciate your making 
the effort to be here today. We had a lot of good exchanges, 
picked up some new ideas as well, and we stand adjourned.
    [Whereupon, at 12:13 p.m., the Committee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                              Appendix II

                              ----------                              


                   Additional Material for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                 Submitted by Committee Ranking Member
                         Eddie Bernice Johnson

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


              Submitted by Representative Suzanne Bonamici
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


              Submitted by Representative Jim Bridenstine

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


               Submitted by Representative Randy K. Weber

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

             Submitted by Representative John R. Moolenaar

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


               Submitted by Representative Thomas Massie

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                Submitted by Representative Gary Palmer
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

              Submitted by Representative Bruce Westerman

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


               Submitted by Representative Frank D. Lucas
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


              Submitted by Committee Chairman Lamar Smith

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
